<html>
<title> - KEYSTONE'S RED TAPE ANNIVERSARY: FIVE YEARS OF BUREAUCRATIC DELAY AND ECONOMIC BENEFITS DENIED</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 KEYSTONE'S RED TAPE ANNIVERSARY: FIVE YEARS OF BUREAUCRATIC DELAY AND
                        ECONOMIC BENEFITS DENIED

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-85

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-910                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

                   
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
           Subcommittee on Commerce, Manufacturing, and Trade

                          LEE TERRY, Nebraska
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      G.K. BUTTERFIELD, North Carolina
MARSHA BLACKBURN, Tennessee          JOHN P. SARBANES, Maryland
GREGG HARPER, Mississippi            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    JOHN A. YARMUTH, Kentucky
DAVE B. McKINLEY, West Virginia      JOHN D. DINGELL, Michigan
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
GUS M. BILIRAKIS, Florida            JOHN BARROW, Georgia
BILL JOHNSON, Missouri               DONNA M. CHRISTENSEN, Virgin 
BILLY LONG, Missouri                     Islands
JOE BARTON, Texas                    HENRY A. WAXMAN, California, ex 
FRED UPTON, Michigan, ex officio         officio
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     1
    Prepared statement...........................................     3
Hon. John P. Sarbanes, a Representative in Congress from the 
  State of Maryland, opening statement...........................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     6
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................     8

                               Witnesses

John Hoeven, a Representative in the U.S. Senate from the State 
  Of North Dakota................................................    10
    Prepared statement...........................................    12
Rush Holt, a Representative in Congress from the State of New 
  Jersey.........................................................    17
    Prepared statement...........................................    19
Ted Poe, a Representative in Congress from the State of Texas....    23
    Prepared statement...........................................    25
Steve Daines, a Representative in Congress from the State of 
  Montana........................................................    28
    Prepared statement...........................................    30
David Delie, President, Welspun Tubular, LLC.....................    35
    Prepared statement...........................................    38
    Answers to submitted questions...............................   134
Karen Harbert, President and CEO, Institute for 21st Century 
  Energy, U.S. Chamber of Commerce...............................    40
    Prepared statement...........................................    42
    Answers to submitted questions...............................   138
Dennis Houston, President and CEO, Norfolk Area Chamber of 
  Commerce.......................................................    51
    Prepared statement...........................................    53
Ron Kaminski, Business Manager, Laborers Local 1140..............    57
    Prepared statement...........................................    60
    Answers to submitted questions...............................   141
Lucian Pugliaresi, President, Energy Policy Research Foundation..    66
    Prepared statement...........................................    69
    Answers to submitted questions...............................   144
Jane Fleming Kleeb, Executive Director, Bold Nebraska............    80
    Prepared statement...........................................    82
Anthony Swift, Attorney, International Program, Natural Resources 
  Defense Council................................................    84
    Prepared statement...........................................    86

                           Submitted material

Letter of September 19, 2013, from Hudson Products Corporation to 
  the subcommittee, submitted by Mr. Olson.......................   131
Letter of May 8, 2013, from General Electric to the U.S. 
  Department of State............................................   132

 
 KEYSTONE'S RED TAPE ANNIVERSARY: FIVE YEARS OF BUREAUCRATIC DELAY AND
                        ECONOMIC BENEFITS DENIED

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Lee Terry 
(chairman of the subcommittee) presiding.
    Members present: Representatives Terry, Lance, Harper, 
Guthrie, Olson, Kinzinger, Bilirakis, Johnson, Long, Barton, 
Upton (ex officio), Schakowsky, Sarbanes, McNerney, Matheson, 
Barrow, Christensen, and Waxman (ex officio).
    Staff present: Charlotte Baker, Press Secretary; Sean 
Bonyun, Communications Director; Kirby Howard, Legislative 
Clerk; Nick Magallanes, Policy Coordinator, CMT; Brian 
McCullough, Senior Professional Staff Member, CMT; Gib Mullan, 
Chief Counsel, CMT; Andrew Powaleny, Deputy Press Secretary; 
Shannon Weinberg Taylor, Counsel, CMT; Michele Ash, Democratic 
Chief Counsel; Will Wallace, Democratic Professional Staff 
Member; and Alexandra Teitz, Democratic Senior Counsel, 
Environment and Energy.
    Mr. Terry. All right. We are going to go ahead and start 
our hearing on the 5th anniversary of the filing of the permit 
for the Keystone XL pipeline. By way of explanation, Ms. 
Schakowsky is at the Intelligence hearing. I guess there are 
some issues that they are dealing with on that committee. Will 
she be able to make it later, we don't know. We will see.
    But Mr. Sarbanes is taking her place as the ranking member 
of the Subcommittee for the day. So, welcome. And he said he 
had a nice commute from Baltimore. That is nice. I had a nice 
commute from my office.
    So I will start with the opening, my opening statement, so 
go ahead and start the clock.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you all for being here today as we mark 
the 5th year of the jobs and economic benefits that have been 
denied by this Administration's refusal to approve the Keystone 
XL pipeline.
    Today marks number 1,826, exactly 5 years to the day since 
the original permits were filed to build the Keystone XL 
pipeline. To put this delay in perspective, it took our 
Greatest Generation just over 1,300 days to fight and win World 
War II. It took Lewis and Clark just over 1,100 days to 
completely walk the Louisiana Purchase and back. It took just 
over 1,400 days to build the Golden Gate Bridge.
    Now, according to President Obama's own State Department's 
analysis, the Keystone XL pipeline will create over 42,000 
jobs.
    With us today we have Ron Kaminski, who is my constituent 
and also a respected labor leader in Omaha, and he will tell us 
that it is indisputable that this project creates jobs.
    We will hear from those along the route. Dennis Houston, 
President and CEO of the Norfolk Chamber of Commerce, will 
testify to the benefits of building the Keystone XL pipeline 
that has on the local economy. During the construction of the 
first Keystone pipeline, the project became the third-largest 
employer in Norfolk area.
    But these jobs Keystone creates aren't just in Nebraska. 
Mr. Delie, President of Welspun Tubular, who has contracted 
with TransCanada to actually make the pipe for the Keystone XL 
pipeline, will testify that this project so far has created 
around 600 jobs in 1 \1/2\ years in the Arkansas area. I 
believe the operative words here are ``so far,'' because there 
is still the northern route of the Keystone XL to be approved 
and built. His company has already made an economic impact of 
$108 million.
    How much more of an economic impact could building the 
Keystone XL pipeline have, and how many more jobs could be 
created by approving this critical infrastructure project? 
Without construction of the northern route, these benefits to 
our nation of builders are denied. The uncertainty and 
political gamesmanship from this Administration is weakening 
our trade relationship with Canada, who also happens to be our 
country's number one trading partner. In our trade relationship 
with Canada, 90 cents of every dollar used to purchase Canadian 
goods and services, including oil, are returned to our economy 
by Canadians buying American goods and services.
    The Keystone pipeline is not only in our economic interest; 
it is plainly in our national security interest.We have seen in 
the last 2 weeks just how much instability in the Middle East 
affects the price at the pump. With our oil and natural gas 
here in North America, we now have the option to become energy 
independent. Why wouldn't we want to have our energy come from 
middle America rather than the Middle East?
    These opportunities are game-changers and there is no 
reason why we should continue to deny these economic benefits. 
During the last 5 years that this Administration has denied 
building the Keystone XL pipeline, it has acted on other 
critical infrastructure projects. One of those critical 
infrastructure projects includes the southern leg of the 
Keystone XL pipeline. Construction is near completion on the 
southern portion of the project. While President Obama has had 
nothing to do with approving this portion of Keystone XL, he 
took credit for it; even posed for pictures.
    And the Administration has approved another vital cross-
border pipeline with Canada, the Alberta Clipper. In approving 
the Alberta Clipper pipeline, which coincidentally is sourced 
from the same oil sands as the Keystone would be, the State 
Department said: ``The Department found that the addition of 
crude oil pipeline capacity between Canada and the United 
States will advance a number of strategic interests of the 
United States. These include increasing the diversity of 
available supplies among the United States' worldwide crude oil 
sources in a time of considerable political tensions in other 
major oil producing countries and regions; shortening the 
transportation pathway for crude oil supplies; and increasing 
crude oil supplies from a major non-OPEC provider. Canada is a 
stable and reliable ally and trading partner of the United 
States in which we have free trade agreements, which augmented 
in the security of the energy supply.''
    The State Department went on to say of the Alberta Clipper: 
``Approval of the permit sends a positive economic signal in a 
difficult economic period about the future reliability of a 
portion of United States energy imports, and in the immediate 
term. This shovel-ready project will provide construction jobs 
for workers in the United States.''
    With logic like this, I don't know why it is not time to 
build the Keystone XL pipeline. With the stroke of a pen, the 
State Department can deem this project in the national interest 
and the President could approve. I am encouraging him to do so 
as he did already with the Alberta Clipper for the same reasons 
as the State Department outlined.
    And that concludes my opening statement and at this time 
yield to the acting ranking member, Mr. Sarbanes.
    [The prepared statement of Mr. Terry follows:]

                  Prepared statement of Hon. Lee Terry

    Thank you for being here today as we mark 5 years of jobs 
and economic benefits that have been denied by this 
administration's refusal to approve the Keystone XL pipeline.
    Today marks day number 1,826--5 years to the day since the 
original permits were filed to build the Keystone XL pipeline. 
To put this delay into perspective, it took our greatest 
generation just over 1,300 days to fight and win World War II. 
It took Lewis and Clark just over 1,100 days to walk the 
Louisiana Purchase and back, and it took just over 1,400 days 
to build the Golden Gate Bridge.
    Now, according to President Obama's own State Department 
analysis, the Keystone XL pipeline will create over 42,000 
jobs.
    With us today we have Ron Kaminski, who is my constituent 
and also a respected labor leader in Omaha. Ron will tell us 
that it is indisputable that this project will create jobs. 
We'll also hear from those along the route. Dennis Houston, 
President and CEO of the Norfolk Area Chamber of Commerce, will 
testify to the benefits of building the Keystone XL pipeline on 
the local economy. During the construction of the first 
Keystone pipeline, the project became the third largest 
employer in Norfolk, Nebraska and had a $10 million dollar 
economic impact for rural Nebraska.
    But these jobs Keystone is creating aren't just in 
Nebraska. Mr. Delie, the President of Welspun Tubular, who has 
contracted with TransCanada to actually make the pipe for the 
Keystone XL pipeline, will testify that this project so far has 
created over 600 jobs in one-and-a-half years. I believe the 
operative words here are ``so far'', because there is still the 
northern route of the Keystone XL to be approved and built. Mr. 
Delie's company has already made an economic impact of $108 
million dollars.
    How much more of an economic impact could building the rest 
of the Keystone XL pipeline have, and how many more jobs could 
be created by approving this critical infrastructure project? 
Without construction of the northern route, these benefits to 
our nation of builders are denied.
    The uncertainty and political gamesmanship from this 
administration is weakening our trade relationship with Canada, 
who also happens to be our country's number one trading 
partner.
    In our trade relationship with Canada, 90 cents of every 
dollar used to purchase Canadian goods and services-including 
oil-are returned to our economy by Canadians buying American 
goods and services.
    The Keystone XL pipeline is not only in our economic 
interest; it's plainly in our national security interest. We've 
seen in the last two weeks just how much instability in the 
Middle East affects the price at the pump. With our oil and 
natural gas plays here in North America, we now have the option 
to become energy independent.
    Why wouldn't we want to have our energy come from middle 
America rather than the Middle East?
    These opportunities are game changers and there is no 
reason why we should continue to deny these economic benefits. 
During the last 5 years that this administration has denied 
building the Keystone XL pipeline, it has acted on other 
critical infrastructure projects.
    One of those critical projects includes the southern leg of 
the Keystone XL pipeline. Construction is nearing completion on 
the southern portion of the Keystone XL project. While 
President Obama really had nothing to do with approving this 
portion of Keystone XL, he took credit for it; even posed for 
pictures with the pipes in Cushing, OK.
    And, the administration has approved another vital cross-
border pipeline with Canada--the Alberta Clipper. In approving 
the Alberta Clipper pipeline, which coincidentally is sourced 
from the same oil sands as Keystone, the State Department said:
    ``The Department found that the addition of crude oil 
pipeline capacity between Canada and the United States will 
advance a number of strategic interests of the United States. 
These include increasing the diversity of available supplies 
among the United States' worldwide crude oil sources in a time 
of considerable political tension in other major oil producing 
countries and regions; shortening the transportation pathway 
for crude oil supplies; and, increasing crude oil supplies from 
a major non-OPEC producer.
    ``Canada is a stable and reliable ally and trading partner 
of the United States, with which we have free trade agreements, 
which augment the security of this energy supply.''
    The State Department went on to say of the Alberta Clipper:
    ``Approval of the permit sends a positive economic signal, 
in a difficult economic period, about the future reliability 
and availability of a portion of United States energy imports, 
and in the immediate term. This shovel-ready project will 
provide construction jobs for workers in the United States.''
    With logic like this, I don't know why it's not time to 
build the Keystone XL pipeline.
    With the stroke of a pen, the State Department can deem 
this project in the national interest.
    If the price instability of oil and the instability in the 
Middle East can't convince Secretary John Kerry that approval 
of the Keystone XL pipeline is in our national and economic 
interest, then we need to seriously question this 
administration's commitment to job creation here at home.

                                #  #  #

OPENING STATEMENT OF HON. JOHN P. SARBANES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Sarbanes. Thank you, Chairman Terry. I appreciate it 
and am looking forward to hearing from two good panels this 
morning.
    I have deep, deep reservations about the Keystone XL 
pipeline and have for a long time. And I wanted to just sort of 
address 3 areas that I think are going to come up in the course 
of this hearing. The first and foremost is the environmental 
impact. And you have to look at the environmental impact of 
this proposal from two sides. One is the impact in terms of the 
frontend of the process. This is the dirtiest source of 
transportation fuel that is currently available. When you look 
at the process that is needed for extraction and production of 
tar sands oil, the impact that that has in terms of 
CO<INF>2</INF> emissions, other environmental impact in my 
estimation is not worth the benefits.
    But that is just one lens you can look at it through. The 
other is what happens if you experience an oil spill. And we 
already have evidence the Kalamazoo River experienced in 2010 
is one. When you have a spill involving this kind of tar sands 
oil, it is very, very difficult to clean it up and there are 
lingering effects that have a tremendous impact on the 
environment. So you have to look at the environmental impact 
both on the frontend, the CO<INF>2</INF> emissions that are 
generated, the negative contribution that it is making in terms 
of impact on climate change, but also the risks that are 
involved if you have a spill or an accident on the backend.
    We hear a lot about how this is going to be a real benefit 
to the U.S. energy consumer. I don't see that and I am 
interested to hear from the panelists today on that topic as 
well. This tar sands oil is going across the United States to 
be refined in Texas and then is bound for world markets. It is 
not bound for U.S. markets. In fact, the entire business model 
of the tar sands industry is premised on the idea that this oil 
will find its way to international markets where it can get the 
highest price. It is the only way you can justify the high 
costs that are associated with extracting and producing tar 
sands oil. So the notion that this is somehow helping us with 
our all-of-the-above energy portfolio and that it is a benefit 
to the U.S. energy consumer will help us reduce our dependence 
on foreign oil and so forth, that dog just doesn't hunt when 
you look at it.
    And I think we have to be clear-eyed in our analysis of 
whether there are any benefits there. I don't see them. And 
actually what we are doing is the Keystone pipeline you could 
refer to as the Keystone lifeline to a tar sands industry that 
again is one of the dirtiest sources of transportation fuel out 
there. And I know there is debate on that front, too, that we 
will hear today. But I don't see the benefits to U.S. energy 
consumer even though that is an argument that is put forward 
quite a bit.
    And then the last item has to do with jobs. And, look, I am 
very sympathetic to the case that is being made there. We are 
still recovering from a very tough recession and trying to get 
our feedback on the ground. No industry experienced that more 
than the construction industry. And I understand why they are 
eager for the opportunities that can be presented by this 
project. We will probably hear testimony as to, you know, 
exactly what is the number of jobs that are projected both on a 
temporary and permanent basis.
    But I think we have been presented with a false choice 
here. We keep hearing about, well, here are the jobs that would 
be created if we had a Keystone, and if we don't have Keystone, 
then we won't have the jobs. There are plenty of other 
infrastructure investments that we can make that would generate 
good jobs across the country, hundreds of thousands of jobs.
    And fact, in the 5-year time frame that this process has 
been going on, there have been plenty of shovel-ready projects 
that, with a modest commitment from Members in this chamber, 
particularly on the other side of the aisle, to those sorts of 
investments in partnership with the private sector, we could 
have launched those projects. They are on the books. The 
designs are in place. They are ready to go. That is the 
alternative.
    And that can happen also in the energy-related industry as 
we create an infrastructure that can deliver more renewable 
energy sources to the driving public and others.
    So that is the choice we are faced with, and so for those 
reasons, I continue to have real reservations about the 
pipeline will look forward to the testimony today.
    Mr. Terry. Thank you.
    At this time I recognize the full committee chair, Mr. 
Upton.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    TransCanada first submitted its application to build the 
Keystone XL pipeline to the United States' State Department 
exactly 5 years ago today. And in the fall of 2010, then-
Secretary of State Hillary Clinton stated that the Department 
was ``inclined'' to approve the project. In 2011, in opposing 
our initial Keystone bill, the White House issued a Statement 
of Administration Policy, stating that the bill expediting the 
pipeline was unnecessary because the State Department was 
``committed to reaching a decision'' before the end of that 
year, several years ago. But here we are now, 5 years after the 
application was filed, and we still don't have approval, 1800-
some days.
    Five years ago, the economy was certainly on an unsteady 
ground, enduring volatile markets that would lead to the Great 
Recession, and we are still facing stubbornly high 
unemployment, certainly in my State of Michigan. And worse yet, 
we now have a shrinking labor force with the smallest 
participation rate since the Carter Administration. It is 
understandable why some Americans who want to work have given 
up hope: they see a government that spends their tax dollars on 
companies that fail while denying permission to build privately 
financed projects that create real jobs.
    Keystone XL can't solve all of our employment problems, but 
it could have helped many by now. And Keystone XL is hardly 
alone. Whether it is private investments in energy development 
or plants facing new regs, Washington's red tape factory is 
making it harder to build things. This subcommittee has focused 
this year on Our Nation of Builders, yet it seems the federal 
regulatory maze is designed to prevent us from investing, 
constructing, and building the next big thing.
    President Obama's State Department estimates that the $7 
billion private investment, shovel-ready Keystone XL 
infrastructure project will support over 42,000 jobs during the 
construction phase alone. And if the project had already been 
approved, companies with contracts could have hired additional 
workers instead of laying them off. Companies like Delta Valves 
in my district in Niles, Michigan, who previously testified 
that they would double their workforce because of the Keystone 
pipeline.
    I would also note that Keystone XL will be the safest 
pipeline in the Nation, with 57 new safety controls specific to 
the project. Pipeline safety is of critical importance to all 
of us, and for me particularly, having endured a 2010 spill in 
the Kalamazoo River just outside of my district. Understanding 
the lessons from that accident, I joined forces with my fellow 
Michigan colleague John Dingell in helping getting landmark, 
bipartisan pipeline safety legislation into law, signed by 
President Obama last year, to ensure we have stricter controls 
and higher fines to protect the public on every new pipeline.
    And despite the added safety controls, exhaustive studies, 
some 15,500 pages of State Department analysis, thousands of 
jobs are still being held hostage to an ever-moving goal line. 
Our friend and ally Canada is pursuing other options, now 
considering building a pipeline to the eastern seaboard for 
refining and export. And I would note today that we already 
import some million-and-a-half barrels of oil sands every day, 
and pipelines obviously have less of a carbon footprint then we 
do by rail or by truck.
    So the Keystone pipeline is certainly an important 
component of our architecture of abundance that is necessary to 
achieve energy self-sufficiency. In January of 2012, the 
President said he would ``do whatever it takes,'' his words----
To create jobs, but here we are still today, 5 years later. It 
is time for the President to join the broad coalition of job 
creators, labor unions, Republicans, and Democrats alike, and 
say ``yes'' to this jobs and energy project.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    TransCanada first submitted its application to build the 
Keystone XL pipeline to U.S. the State Department exactly five 
years ago today. In the fall of 2010, then-Secretary of State 
Hillary Clinton stated that the department was ``inclined'' to 
approve the project. In 2011, in opposing our initial Keystone 
bill, the White House issued a Statement of Administration 
Policy, stating that the bill expediting the pipeline was 
unnecessary because the State Department was ``committed to 
reaching a decision'' before the end of that year. But here we 
are today, 5 years after the application was filed, and we 
still don't have approval.
    Five years ago, the economy was on unsteady ground, 
enduring volatile markets that would lead to the Great 
Recession--and we are still facing stubbornly high 
unemployment. Worse yet, we now have a shrinking labor force 
with the smallest participation rate since the Carter 
administration. It is understandable why some Americans who 
want to work have given up hope: they see a government that 
spends their tax dollars on companies that fail while denying 
permission to build privately financed projects that create 
real jobs.
    Keystone XL can't solve all of our employment problems, but 
it could have helped many by now. And Keystone XL is hardly 
alone. Whether it's private investments in energy development 
or plants facing new regulations, Washington's red tape factory 
is making it harder to build things. This subcommittee has 
focused this year on Our Nation of Builders, yet it seems the 
federal regulatory maze is designed to prevent us from 
investing, constructing, and building the next big thing.
    President Obama's State Department estimates the $7 
billion, private investment, shovel-ready Keystone XL 
infrastructure project will support over 42,000 jobs during the 
construction phase alone.
    If the project had already been approved, companies with 
contracts could have hired additional workers, instead of 
laying them off. Companies like Delta Valves in Niles, 
Michigan, who previously testified they would double their 
workforce because of the Keystone pipeline.
    I would also note that Keystone XL will be the safest 
pipeline in the nation, with 57 new safety controls specific to 
this project. Pipeline safety is of critical importance to me, 
having endured a 2010 spill in the Kalamazoo River. 
Understanding the lessons from that accident, I joined forces 
with my fellow Michigan colleague John Dingell in helping get 
landmark, bipartisan pipeline safety legislation into law, to 
ensure we have stricter controls and higher fines to protect 
the public.
    Despite the added safety controls, exhaustive studies, and 
15,500 pages of State Department analysis, thousands of jobs 
are still being held hostage to an ever-moving goal line. Our 
friend and ally Canada is pursuing other options, now 
considering building a new trans-Canadian pipeline to their 
eastern seaboard for refining and export.
    The Keystone pipeline is an important component of our 
architecture of abundance that is necessary to achieve energy 
self-sufficiency. In January of 2012, the president resolved to 
``do whatever it takes'' to create jobs, but here we still are 
today. It is time for the president to join the broad coalition 
of job creators, labor unions, Republicans, and Democrats 
alike, and say ``yes'' to this jobs and energy project.

    Mr. Upton. And I yield the balance of my time to Mr. 
Kinzinger from Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you, 
everybody, for holding this hearing. Gentlemen, thanks for 
being here.
    I can't believe it has been over 5 years since this thing 
was really even brought up. It really is mind-boggling to me. 
What does the Keystone pipeline mean for the U.S.? It means 
20,000 jobs, not just jobs but high-paying jobs that will pay 
workers' salaries well above the prevailing wages of their 
local areas. These workers and their wages brought about due to 
the construction of the pipeline will be about $5.2 billion in 
new property tax revenue for local economies. As local 
governments struggle to close budget holes, this is going to be 
vital to recovery in those areas.
    In addition, we will see 130,000 barrels of safe and secure 
oil each day from Canada, not the Middle East, which means we 
will need less oil from the Middle East, and those that want to 
give money sometimes to people that want to kill our soldiers 
overseas. We can no longer rely on those countries and we need 
to be energy secure here at home.
    And let's not forget finally somebody is going to benefit 
out of this oil out of Canada. It is either going to be the 
United States or it is going to be China. It is going to get 
drilled and it is going to get shipped. So I think this needs 
done.
    I thank the chairman for yielding the time and I yield 
back.
    Mr. Terry. Thank you.
    Now, it is my honor to introduce and recognize the full 
committee chairman on the minority side, Ranking Member Mr. 
Waxman for your 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman. It used to 
be called ranking member but I----
    Mr. Terry. What did I call you?
    Mr. Waxman. It is OK. I don't want to use my time. Full 
committee chairman on the Democratic side.
    Mr. Terry. Oh, yes, ranking member.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman and my colleagues, today's hearing 
is on the TransCanada's proposed Keystone XL tar sands 
pipeline. I oppose this tar sands pipeline because this locks 
us into decades of higher carbon pollution. It is a big step in 
the wrong direction on climate change, and that is something we 
simply cannot afford to do.
    Yesterday, the Energy and Power Subcommittee of this 
committee held its first hearing in years on climate change, 
and we heard from the Secretary of Energy Ernest Moniz, who is 
also an acclaimed physicist from MIT and Stanford. He told us 
that ``we have to act this decade'' on climate change. Our 
window for avoiding catastrophic effects of climate change is 
closing rapidly. In fact, we are already experiencing harm from 
climate change today in our daily lives.
    Earlier this week, the House Safe Climate Caucus held a 
forum to hear from Americans who had been harmed by climate 
disruption. We heard from an Iowa farmer who told us how 
successive droughts and floods have destroyed his crops. A 
Californian told us how her community was devastated by the 
Yosemite rim fire, which has cost $113 million just to fight 
and is still burning today. A Texas rancher spoke of having to 
cull \2/3\ of his herd in the drought. A survivor of Hurricane 
Sandy told us that a quarter of all the houses in her community 
are damaged and empty almost a year later. And a reverend from 
Louisiana described how sea level rise threatens his rural 
community and he invoked the Bible in calling upon Congress to 
doing something about it.
    Yesterday, I posed one question to those who oppose the 
President's action on climate change: What is your plan? Don't 
just say no; propose an alternative. Instead, we heard nothing. 
Instead of doing something to address climate change today, we 
are holding the 11th hearing since 2011 to push one favored 
project that would make climate change worse. This single tar 
sands pipeline would increase America's carbon pollution 
equivalent to building seven new coal-fired power plants. It is 
hard to think of another project that could do this much 
damage.
    If our goal is creating jobs, Keystone XL is not the 
answer. Instead, we should be working to ensure broad 
opportunity for the middle class. We should be fixing America's 
crumbling roads and bridges, and we should be investing--the 
other subcommittee is investigating this morning--but we should 
be investing in the clean energy technologies of the future.
    We keep hearing about this project and this 5th 
anniversary. It is also the 5th anniversary of the collapse of 
our economy, and we are still trying to recover from that. In 
these last 5 years, millions of Americans have lost their jobs, 
fallen behind on their mortgages, become swamped by debt, and 
they are barely getting by.
    Mr. Chairman, I don't want to take my full 5 minutes. I 
always feel guilty when I see such a distinguished group of 
Members of the House and even a Senator waiting to give us 
testimony, so I yield back the balance of my time and look 
forward to this 11th hearing--no, what is this? This----
    Mr. Terry. No, I think you said 11th. I haven't kept track.
    Mr. Waxman. Well, I can hardly wait for more hearings 
because this seems to be the only issue we are looking at in 
this committee. Thank you for the time.
    Mr. Terry. Thank you. I appreciate it. We are going to go 
to our first panel now. And as is tradition, we will take your 
testimony, then there will be questions after. That is the 
tradition. And so I am going to introduce all of you and then 
call on from my left to right. So our first panel includes 
Senator John Hoeven, who is former Governor of North Dakota. 
Now, he is Senator and the leading person on the Keystone 
pipeline in the Senate.
    Then, we have Congressman Rush Holt, a Member of Congress 
from New Jersey, who was also a classmate of mine.
    Congressman Ted Poe, senior Member from Texas, serves on 
Judiciary and Foreign Affairs.
    Then we have a newer Member, Congressman Steve Daines, an 
at-large from Montana, one of the States that this pipeline 
will go through. So that is our first panel.
    And now, Senator Hoeven, I recognize you for 5 minutes.

 STATEMENTS OF HON. JOHN HOEVEN, A REPRESENTATIVE IN THE U.S. 
   SENATE FROM THE STATE OF NORTH DAKOTA; HON. RUSH HOLT, A 
 REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW JERSEY; HON. 
TED POE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS; 
 AND HON. STEVE DAINES, A REPRESENTATIVE IN CONGRESS FROM THE 
                        STATE OF MONTANA

                    STATEMENT OF JOHN HOEVEN

    Senator Hoeven. I would like to thank Chairman Terry for 
inviting me and also acknowledge Chairman Upton for being here. 
I appreciate their comments. I also appreciate the opportunity 
to respond to some of the comments made by the minority members 
of the committee.
    I think it is remarkable that we are sitting here for this 
5th anniversary. You know, usually when you have a birthday or 
an anniversary, it is a good thing, but here we are, the 5th 
anniversary of no decision. Is there anybody in this room that 
would want us talking about them saying for 5 years they 
couldn't make a decision or wouldn't make a decision? What is 
going on? And the Administration has not made a decision for 5 
years. We elect presidents to make decisions, and here we sit 
on the 5th anniversary on a project that will produce more 
energy for this country, it will create jobs, economic growth, 
and help us with national security.
    In a recent Harris poll conducted this summer, 82 percent 
of Americans support the project. Tell me one other thing you 
can get 82 percent of Americans to agree on? Eighty-two percent 
of Americans in a recent Harris poll support this project. Just 
some other stats from that poll, 85 percent of the people agree 
that Keystone XL would strengthen America's economic security; 
81 percent of the people agree Keystone would help strengthen 
America's energy security; 77 percent agree it would help 
strengthen America's national security; 75 percent agree it 
would benefit the U.S. military by increasing access to oil 
from Canada.
    Look, it is not just about Canadian oil. I represent the 
State of North Dakota. We now produce almost a million barrels 
of oil a day, second only to Texas. We need to move our oil to 
market. Day one will put 100,000 barrels a day of oil into this 
pipeline, the lightest, sweetest crude there is. You talk about 
safety; this oil, whether it is our oil or whether it is oil 
from the oil sands is moving by truck, train, and if we don't 
take it, tanker to China. What is safer than the latest, 
greatest pipeline technology when we have millions of pipelines 
already, some of them very old, and this would be new, state-
of-the-art?
    Some of the other comments that came up talk about 
environmental impacts. After 5 years and something like four 
environmental impact statements, the State Department has 
determined no significant environmental impact. No significant 
environmental impact. And in fact it produces less emissions 
than the crude we get from California or Venezuela. What, we 
would rather get it from Venezuela? Or how about the Middle 
East with what is going on in Syria and Iran and the 
instability there, I know, let's continue to depend on the 
Middle East. That is what Americans want rather than working 
with our closest friend and ally, Canada, to get the oil? What 
is going on? I mean it is just unbelievable.
    Some of the other comments that came up, the benefit. So 
here is a pipeline. I think to build the U.S. portion is 
something like $5.3 billion. We don't spend one single taxpayer 
dollar but we get hundreds of millions in tax revenue and the 
State Department, as Chairman Upton said, by its own 
admissions, this thing creates 40,000 jobs. Well, what is wrong 
with that? You know, when you look at the facts it is hard to 
understand.
    And then this idea that the oil won't be produced if we 
don't build the Keystone XL pipeline, come on. It is being 
produced right now and that volume is increasing. It is moving 
by truck and train, creating dangerous issues, which you know 
about. You have heard about some of the problems that it 
creates like Megantic in Quebec, OK, instead of moving it more 
safely by a pipeline.
    And so in a final analysis if the United States doesn't 
take this oil and we don't build this needed infrastructure 
which States like mine need, it is going to China. So this oil 
goes to China on tankers and it is refined over there.
    One other point, this idea that this pipeline is being 
built for export, the Department of Energy, the Obama 
Administration's Department of Energy says otherwise. Check out 
their June 2011 report that says that the oil will be used in 
the United States and we need more and it will help lower 
prices.
    So let's deal with the facts. Believe me, after 5 years we 
know what they are. And, you know, today, we are calling 
attention to this anniversary but it is not the right kind of 
anniversary, the 5th year anniversary of no decision. And this 
project really represents a significant problem that we have in 
this country right now, and that is that the regulatory burden 
is hurting our economy and Keystone XL pipeline is a clear case 
in point.
    Thank you so much for inviting me.
    [The prepared statement of Mr. Hoeven follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Terry. Thank you, Senator.
    I now recognize the gentleman from New Jersey, Mr. Holt, 
for your 5 minutes.

                     STATEMENT OF RUSH HOLT

    Mr. Holt. I thank the chair. It is good to be with you, 
Chairman Terry and Representative Sarbanes, other members of 
the committee.
    As ranking member of the Natural Resource Subcommittee on 
Energy and Mineral Resources, I have had the opportunity to 
take part in extensive debate on the merits of the Keystone XL 
pipeline project.
    We are talking about a pipeline with the capacity to 
transport 830,000 barrels per day of tar sands product, one of 
the dirtiest energy sources on the planet, from the despoiled 
Boreal Forests of Canada through the central United States over 
one of this country's most valuable aquifers to the Gulf Coast 
refineries where much of the oil and refined product will be 
exported to overseas markets.
    The tar sands substance--and I call it substance rather 
than oil--is unbelievably not oil for the purposes of paying 
into the Oil Spill Liability Trust Fund, meaning that the 
Canadian tar sands get a free ride through U.S. pipelines. I 
have made efforts to correct this loophole by proposing 
amendments to Keystone XL legislation, but unfortunately, those 
attempts have been rejected by the majority.
    Meanwhile, the Government Accountability Office has already 
warned us that the Oil Spill Trust Fund is at risk of running 
out of money because of the cost of recent tar sands cleanup 
efforts following spills in the Kalamazoo River in Michigan, 
the Yellowstone River in Montana, and suburban streets of 
Mayflower, Arkansas, where the cleanup continues. Yes, the tar 
sands is providing jobs in the United States, cleanup jobs, not 
what we would like to see.
    If we are going to ask the United States to bear all of the 
environmental risk of transporting this dirty oil, we should at 
least ensure that the American people see some benefit. 
However, 60 percent of the gasoline, 42 percent of the diesel 
produced in the Gulf Coast Texas refineries was exported last 
year. And we talk about promoting energy security. When I have 
proposed amendments to guarantee that the oil stays in the 
United States, they have been rejected by the majority. Now, 
granted, a significant number of jobs over the couple of years 
of construction, but the papers filed by the proponents of this 
bill show that over the long term after the bump of 
construction jobs, there will be about 30 to 40 permanent jobs 
in the United States, not 30 or 40,000, 30 or 40 over the long-
term.
    Now, let's take a look at what has happened over the last 5 
years. The concentration of carbon dioxide in the Earth's 
atmosphere has reached 400 parts per million, a level never 
seen before by humans. The U.S. has experienced drought, flood, 
fire, barges aground, tornadoes costing American's lives and 
dollars. Glaciers are shrinking, sea level is rising, the 
Earth's temperature is increasing unmistakably.
    The United States doesn't need this dirty energy because 
the fact is we are developing domestic oil, natural gas 
resources at a record pace. In the last 5 years U.S. production 
has steadily increased while per capita construction continues 
to decline. Combined with increases in renewable energy, we are 
well on our way to energy independence.
    Now, we have heard that the XL pipeline will help us 
develop our domestic energy resources. As my friend from North 
Carolina could tell us, we don't need an international pipeline 
like the Keystone XL to move those resources to market. In this 
country hundreds of miles of pipeline are already under 
construction, and as we speak, in the southern portion from 
Cushing, Oklahoma, to the Gulf Coast, we have pipeline that 
does not require presidential permit
    Now, the chairman spoke about the Golden Date Bridge and 
the Lewis and Clark expedition. Yes, we should be creating 
jobs, $2 trillion of infrastructure backlog that we need to be 
investing in to put to work engineers and the pipe trades and 
the laborers and other workers. We should be investing in 
energy produced and used here in the United States, clean, 
sustainable energy.
    The President has wisely said that he will not approve the 
pipeline if it leads significantly to worse climate change, and 
that is clearly the case.
    Now, at the end of the day we know pipelines will leak and 
oil will spill. Nationwide, about 3.2 million gallons of oil 
spill every year. We don't want jobs created cleaning up that 
mess. All risk, no benefit.
    Now, one option to mitigate the CO<INF>2</INF> emissions is 
carbon capture and sequestration. I would like to propose an 
alternative. Leave the carbon in the ground. Don't cut the 
forests of Alberta. Don't mine and refine the tar sands. Don't 
burn that refined product. That will offset trillions of 
dollars of damage that we are facing over the next thousands of 
years because of climate change.
    [The prepared statement of Mr. Holt follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Terry. Thank you, Mr. Holt.
    I now recognize the gentleman from Texas, Mr. Poe, for 5 
minutes.

                      STATEMENT OF TED POE

    Mr. Poe. Thank you, Mr. Chairman, Mr. Sarbanes. Thanks for 
inviting me to testify today.
    Today is a sad anniversary. It is the anniversary of 
bureaucracy, red tape, and delay, delay, delay, delay, delay--I 
think that is five delays--with the permitting process. The 
Keystone XL pipeline was originally proposed in 2008, and the 
permit was applied for by TransCanada on September the 19th, 
2008. But we wait 5 years later for a decision.
    As the chairman has pointed out, 5 years we went to war in 
World War II on two fronts and won World War II in less than 5 
years. Hoover Dam was built in less than 5 years. And we are 
not talking about building anything. We are talking about a 
signature on a permit on the dotted line. And it is the 
American people that pay the price for this inaction by 
government.
    There are 11.3 million unemployed Americans today, and some 
models say the Keystone XL pipeline project is expected to 
directly create 15,000 manufacturing jobs, $118,000 spinoff 
jobs that could help surely put Americans back to work. And 
some of these jobs will be in my State of Texas.
    The unemployment rate in Port Arthur, Texas, where this 
pipeline is to end, is 15.7 percent. Many of those unemployed 
are minority young adults. The pipeline will help some of them 
get back to work in high-paying and good jobs. And on top of 
that, the pipeline is expected to bring $2.3 billion just to 
the Texas economy. There are currently 13,000 refinery workers 
in Texas and this will help keep those people employed and 
create more jobs.
    It is also important to remember this is not all about just 
crude oil. In addition to the 22 gallons of gasoline that a 
barrel of oil produces, a barrel also produces 12 cylinders of 
propane, a quart of motor oil, and most importantly, 
petrochemicals that are used in all kinds of pharmaceuticals, 
plastics, cosmetics, and foodstuffs.
    All of the industries that line the Houston ship channel 
use oil to make these different products. These industries need 
a constant, reliable source of crude. And over 50 percent of 
the exports out of the Houston ship channel are in some way 
involved with the energy industry. So why would we not want to 
expand these domestic industries to have a clean, safe, and 
reliable source of crude from North America? And pipelines are 
the safest way to move crude oil. It has to be moved some way 
and a pipeline historically is the best and safest way.
    Now, how much oil are we talking about? How will it change 
the equation, especially the foreign-policy equation in the 
United States? Keystone would move about 830,000 barrels of oil 
a day. This represents about half of the daily amount that the 
United States imports from the Middle East, almost as much as 
we get daily from Saudi Arabia. With the current instability in 
the Middle East, approval of the Keystone pipeline is an issue 
of national security.
    Mr. Chairman, we can help make Middle Eastern oil, turmoil, 
and politics irrelevant if we take care of ourselves and 
approve this pipeline. Canada is already the largest supplier 
of energy to the United States meeting 12 percent of current 
U.S. petroleum consumption needs and 18 percent of U.S. 
petroleum imports. Canada's 175 billion barrels of oil reserves 
is second only to Saudi Arabia.
    Canada is going to build and sell this oil to somebody. We 
cannot stop production of oil in Canada even in the tar sands. 
How would we rather this pipeline be built and sent West to our 
good buddies the Chinese and all float on their tankers? I 
think not. Inaction is detrimental to national security.
    With greater use of Canadian oil along with all-of-the-
above energy policy, it is possible the United States could be 
really energy independent in 10 years. Imagine how our foreign 
policy could change if that were the case? The United States 
should work more with Canada not less and also with our 
partner-neighbor Mexico to form an economic energy security 
zone in North America, all for the United States, Mexico, and 
for Canada.
    Mr. Chairman, in my days as a judge if I heard a criminal 
case and heard all the evidence and after the evidence was in I 
told the defendant, oh, I will get back with you in 5 years and 
let you know whether you are going to jail or not, that would 
be incompetence. We have got the evidence. The evidence is in, 
and the overwhelming evidence is it is good for the country 
overall to build and approve this pipeline. Let's get it done.
    And I yield back. Thank you.
    [The prepared statement of Mr. Poe follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Terry. Thank you, Mr. Poe.
    And I now recognize the gentleman from Montana, Mr. Daines.

                   STATEMENT OF STEVE DAINES

    Mr. Daines. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify here today about the importance of the 
Keystone XL pipeline and the importance to my home State of 
Montana.
    As the lone Representative from the State of Montana, I was 
just elected last year. Prior to coming to Congress, I spent 28 
years in the private sector. I have a degree in chemical 
engineering and worked in business for 28 years. I was elected 
last fall.
    I have seen a lot of things in Washington that shocked me 
since I have been elected, but the fact that we are sitting 
here 5 years after an approval process was initiated for the 
construction of this pipeline is astounding. This is a prime 
example of everything that is wrong with Washington. It took 
Canada 7 months for the leadership of their government to get 
it approved. President Obama and the Washington bureaucrats 
have taken 5 years and we don't have an answer. If we did that 
in the business world, we would be out of business. I am here 
today to tell you that the Montanans are tired of the gridlock 
and ready for this pipeline to be approved.
    I would love to see some of my colleagues from the States 
that are thousands of miles away from Montana and North Dakota 
to come out and spend some time with the families that are 
dependent for their economic futures here on this pipeline.
    The President's inaction and the bureaucratic delays have 
created uncertainty about whether or not my State will get to 
reap the benefits of this pipeline. And let me tell you, the 
benefits are plentiful in Montana.
    Over the past few years, small towns in the eastern part of 
Montana have been revitalized by the exploration and production 
of oil in the Bakken. Energy development means better 
opportunities for employment. It means more revenue flowing 
into state and local government coffers for schools and for 
roads and economic growth and jobs for our communities.
    Now, I want to remind you the Keystone pipeline starts its 
journey as it goes from Canada; the first State it enters is 
the State of Montana. We kind of have the outset alpha and 
omega in here I think with myself and the honorable judge from 
Texas. Montana shares a 500-mile northern border with Canada. 
Our State is known for its abundance of natural resources. If 
you have seen the movie a ``River Runs through It,'' that is 
Montana. And we cannot think of a better place for the Keystone 
to initiate its route than into the State of Montana.
    It crosses initially in Phillips County. It is going to 
cross through five other counties in my State. And more than 
800 good-paying jobs in Montana will be created by that, with 
thousands more across the Nation.
    Now, let me set a fact straight here that has actually been 
misquoted in this hearing so far. We talk about the 830,000 
barrels of oil per day being transported, and the Senator from 
North Dakota mentioned this as well. Remember, 100,000 barrels 
a day of the 830 is Montana and North Dakota oil. So please, as 
we talk about this, it is not just about Canadian oil. It is 
about transporting Montana and North Dakota oil in the most 
efficient and environmentally safe way across this country. And 
remember, that is about half of the amount of oil that is 
currently imported today from the Middle East.
    Thirty days ago I was standing on the border between Israel 
and Syria looking into Syria. Remember what happened back in 
1973 in the war of Yom Kippur when oil prices spiked four times 
in a short period of time and created a shockwave in this 
economy? It is imperative that we move as quickly as possible 
to creating North American energy independence, and this moves 
us a long way down that path.
    It also means cheaper energy costs for the people in 
Montana. Let me tell you something. Again, I would love to have 
you come out and spend some time with working moms and dads in 
Montana who are going to be dependent on this pipeline. I spent 
time with the NorVal electric co-op. They supply electricity 
for thousands of Montanans. They told me that if the Keystone 
pipeline is approved, that their utility rates will be held 
constant for the next 10 years because of the additional load. 
They are going to supply electricity to a pump station of the 
Keystone pipeline. Without the Keystone pipeline, rates are 
predicted to go up 40 percent. That is right on the backs of 
hardworking Montana families, many where moms and dads are 
having to try to work every day to make ends meet. In fact, it 
amounts to $480 per year additional expense for these families 
out there that, I tell you what, they are working hard living 
month-to-month.
    The pipeline has undergone four environmental reviews with 
one more finalization of review yet to come. Believe me, in 
Montana we understand the importance of protecting the 
environment. I am an avid outdoorsman. I love to fish, I love 
to hunt, I love to back pack, I love to climb mountains. But we 
can have both, and this is the most environmentally safe way to 
transport oil yet invented. In fact, when compared to any other 
means of transportation, it is the most environmentally safe 
way to do it.
    These days in Washington it is hard to find any measures 
that Republicans and Democrats agree on, but let me tell you 
what, my two Senators from Montana, both Democrats, Max Baucus 
and Jon Tester, they support the pipeline's construction. This 
is common sense. Montanans support the construction of the 
Keystone pipeline. Again, I would invite those Members who are 
opposed to this, come out and drive around in my Ford truck and 
spend some time with the Montana families right now that live 
month-to-month on their paychecks. Why are we still waiting?
    [The prepared statement of Steve Daines follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Daines. Finally, my constituents would like to enter 
the statement of support for the pipeline's approval. The group 
includes the Montana Electric Co-op Association, Phillips 
County Commissioners, Eastern Plaines Economic Development 
Corporation, and the Montana Petroleum Association. I ask 
unanimous consent for these comments to be added to the record.
    Mr. Terry. Hearing no objection, so ordered.
    And thank you for your testimony. I thank all of you for 
taking your time out of your busy schedules to join us today. 
Your input is greatly appreciated.
    We will now get ready for our second panel.
    First, we have David Delie, President, Welspun Tubular; the 
next, Hon. Karen Harbert, President and CEO of Institute for 
21st Century Energy and the U.S. Chamber of Commerce; Dennis 
Houston, President and CEO of the Norfolk Area Chamber of 
Commerce; Ron Kaminski, Business Manager, Laborers Local 1140; 
Lucian Pugliaresi, Energy Policy Research Foundation. Welcome 
back. Jane Kleeb, Executive Director of Bold Nebraska making an 
entry; Anthony Swift, Attorney, International Program, NRDC. 
And welcome back as well. Thank you.
    That is our second panel, and we will start with you, Mr. 
Delie. You are now recognized for your 5 minutes.

  STATEMENTS OF DAVID DELIE, PRESIDENT, WELSPUN TUBULAR, LLC; 
 KAREN HARBERT, PRESIDENT AND CEO, INSTITUTE FOR 21ST CENTURY 
ENERGY, U.S. CHAMBER OF COMMERCE; DENNIS HOUSTON, PRESIDENT AND 
 CEO, NORFOLK AREA CHAMBER OF COMMERCE; RON KAMINSKI, BUSINESS 
  MANAGER, LABORERS LOCAL 1140; LUCIAN PUGLIARESI, PRESIDENT, 
    ENERGY POLICY RESEARCH FOUNDATION; JANE FLEMING KLEEB, 
EXECUTIVE DIRECTOR, BOLD NEBRASKA; AND ANTHONY SWIFT, ATTORNEY, 
    INTERNATIONAL PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

                    STATEMENT OF DAVID DELIE

    Mr. Delie. Good morning, Chairman Terry and members of the 
committee. For the record, my name is David Delie and I am the 
president of Welspun Tubular, LLC, in Little Rock, Arkansas. I 
have approximately 35 years of experience in the steel industry 
and I have been president of Welspun for the past 2-\1/2\ 
years.
    Welspun invested over $290 million installing two pipe 
mills, two coating lines, and auxiliary equipment in Little 
Rock enabling us to produce line pipe for pipelines in sizes 
ranging from 6 inches to 60 inches in outside diameter. At our 
peak, we have had more than 800 employees in our operation, 
making us one of the largest employers in the city of Little 
Rock.
    Approximately 4 years ago, Welspun was chosen as the 
largest U.S. supplier for the U.S. portion of the Keystone XL 
pipeline by TransCanada. In all, we have produced over 330,000 
tons or 700 miles of 36-inch API grade X70 pipe for TransCanada 
on this project. We produced this pipe in Little Rock and we 
coated this pipe in Little Rock. This project so far has 
generated over 600 jobs for over 1 \1/2\ years at Welspun 
alone. This is not counting any of our indirect supporting jobs 
that are required to operate our plant on a daily bases. 
Welspun has also infused over $108 million into the local 
economy from this project so far.
    Given the delays in the approval process, TransCanada has 
asked Welspun to store some of the pipe in Little Rock and 
asked us to apply protective coating so that the pipe can be 
stored outside without harming the epoxy coating applied to the 
pipe that is intended to protect the pipe while it is in the 
ground. I have attached to my testimony a picture of over 
180,000 tons or 373 miles of pipe in this storage yard.
    Some of the pipe purchased by TransCanada has been 
installed in a section of the line from Cushing, Oklahoma, to 
Houston, Texas. That part of the line did not require 
presidential approval. However, the vast majority of the 
Keystone will be laid between the Canadian border and Cushing, 
Oklahoma.
    TransCanada has made it clear that if KXL is not approved, 
outlook changes fairly significant as pipe for the Keystone XL 
will be redeployed to other TransCanada projects or re-sold to 
other companies, reducing the pipe production levels in 2014 
and beyond. Thus, TransCanada can almost overnight be 
transformed from our biggest customer to our biggest 
competitor.
    The sale of this pipe to the open market would result in 
the direct losses of approximately 1,500 jobs in the line pipe 
industry, thousands more in the steel industry, and will also 
have massively depressing effects on the prices of line pipe in 
the U.S. market.
    In a recent hearing before the International Trade 
Commission concerning a sunset review of anti-dumping duty 
order on large diameter line pipe from Japan, a commissioner 
asked expert economists hired by the industry to assess the job 
impact of the Keystone XL pipeline. That economist, Dr. Robert 
Scott, using information available to the public and in part on 
research provided by the Congressional Budget Office, found 
that approximately 80,000 job years over 2 years of 
construction in the installation of the Keystone pipeline would 
be created.
    In addition to the direct impact of the jobs caused by the 
5-year delay in the approval of the Keystone pipeline, there 
has been very significant indirect adverse effects on pipeline 
construction within the United States. In spite of both the 
discovery of production of large new quantities of oil and 
natural gas from new shale fields, pipeline companies are not 
installing pipelines to bring these products out from the shale 
areas to the market.
    For example, in the Bakken in the Dakotas, one of the most 
prolific and largest oil production areas in the U.S. at the 
present time, more than \3/4\ of that oil production is leaving 
the region on rail cars. There is little doubt that 
transportation of oil through pipelines is safer than by rail 
or tanker trucks. However, the pipeline companies see what has 
happened to Keystone XL and are foregoing the massive amounts 
of time and effort necessary in order to get pipelines 
approved. Thus, in spite of increases of more than 25 percent 
in overall U.S. oil production over the past 5 years, much of 
it in new oilfields that require pipeline connections to the 
marketplace, we are seeing significantly less pipeline 
construction and demand than we were prior to this increase in 
oil production. This has a negative impact on the pipeline 
industry, the domestic steel industry, and U.S. jobs.
    The construction of the KXL pipeline will provide more 
opportunities as the infrastructure grows in support of the 
development of oil sands in Canada and the Bakken in the United 
States. The end result is Keystone XL will enable growth which 
will support ongoing production and jobs in Little Rock. 
Denying the project will reduce ongoing employment.
    I appreciate the opportunity to testify before the 
committee and hope you are able to pass legislation to require 
the approval of the Keystone XL pipeline and to remove the 
bottlenecks on pipeline construction in the United States.
    Thank you.
    [The prepared statement of Mr. Delie follows:]
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Terry. Thank you.
    Now, Ms. Harbert, you are now recognized for your 5 
minutes.

                   STATEMENT OF KAREN HARBERT

    Ms. Harbert. Thank you, Chairman Terry, Congressman 
Sarbanes, and members of the committee. I am Karen Harbert, 
President and CEO of the Institute for 21st Century Energy at 
the Chamber of Commerce, the world's largest business 
Federation. The mission of the Institute is to unify 
policymakers, regulators, business leaders, and the public 
behind commonsense energy strategies.
    Today marks the 5-year anniversary of the government's 
review of TransCanada's application to construct the Keystone 
XL pipeline. The Energy Institute is convinced Keystone is in 
our Nation's best interest; 15,000 pages of government reviews 
prove it, and over 80 percent of American citizens support it.
    You have already heard numerous reasons why KXL is 
important. It would create thousands of jobs, generate millions 
of dollars in tax revenue, and allow America to import less oil 
from unfriendly nations.
    But unfortunately, the issue in front of us is much greater 
now than Keystone. The failure of the Federal Government after 
5 years to grant a construction permit for the Keystone 
pipeline exemplifies perhaps better than anything else the 
challenges of building energy infrastructure in the United 
States. This failure has not only denied Americans the benefit 
of the economic shot in the arm this project would provide; it 
has tarnished America's image as a can-do country open to 
investment, a failure that can be hard to shake from investors' 
minds.
    And this failure comes at a critical time. The U.S. is 
moving from energy resource scarcity to one marked by 
abundance. Indeed, the core underlying assumption of our energy 
policy, scarcity is no longer valid. We now know that North 
America has the largest fossil fuel resource in the world, yet 
our policy is still based on the assumption that we are an 
energy-poor nation subject to the whims of the world's largest 
and unfriendly energy exporters. In short, our energy policy 
has not caught up with our energy reality, and now, we are 
either not caught up or ignoring this remarkable paradigm 
shift. The first is solvable; the latter is damaging.
    The rapid change in our fortunes of energy has caught many 
analysts and policymakers by surprise, but now, many experts 
believe the energy self-reliance for North America if not for 
the United States is actually within reach. Simply put, the 
world's energy center of gravity is shifting from the Middle 
East to North America if we let it.
    In 2002, North America accounted for about 5 percent of the 
world's total oil reserves. In 2003, with the addition of 
Canada's oil sands, those reserves increased to 18 percent. And 
now, a decade later in 2013, technically recoverable resources 
from unproved conventional and shale oil resources could be as 
high as 600 billion barrels, triple the 2003 estimate. When we 
combine that with the 2 trillion barrels of oil shale in the 
middle part of our country, North America's crude oil resource 
is greater than the amount of proved conditional resources and 
the entire rest of the world.
    But the question before us is are we prepared to capitalize 
on it? The Hoover Dam was built in 5 years, the Empire State 
building in 1, the New Jersey Turnpike in 4, and now it takes 
an average of over 3 years merely to complete an environmental 
impact statement, let alone build anything. So the answer is 
no, we are not prepared to capitalize on this fundamental and 
huge opportunity.
    Our energy infrastructure today is increasingly inadequate 
to currently meet our energy-growing demand. Providing energy 
is a long, capital-intensive undertaking and they require long 
lead times and massive amounts of new capital. Some of that 
investment and some of those jobs will never happened or they 
will go elsewhere if the regulatory environment under which 
companies operate is too burdensome or unreliable.
    Unfortunately, our energy sector does suffer from a 
lengthy, unpredictable, and needlessly complex regulatory maze 
that delays or halts the construction of new energy 
infrastructure. We see federal and state environmental 
statutes, state siting, permitting, frivolous litigation, and a 
``build absolutely nothing anywhere near anything'' BANANA 
syndrome routinely used to stop and block every expansion of 
transmission lines to power plants to pipelines to green energy 
projects.
    As a Nation, a continent, we have been blessed with new 
abundant natural resources, but fulfilling that economic energy 
potential requires strategic thinking underpinned by durable 
policy. But unfortunately, we now have conflicting, 
contradictory, and myopic energy policies. These extraordinary 
opportunities created by energy today have come about despite 
government policy, not because of it, and that has to change if 
we are to energize our economy, put people back to work, and 
get the energy infrastructure we need like the Keystone 
pipeline. If done right, it can drive our nation's economic 
recovery and it can change our energy future fundamentally, or 
we can choose to cede those advantages to other countries.
    So let's unleash the power of the market, approve the KXL 
pipeline, and show that we believe getting our oil from our 
trusted ally Canada is better than sending more of our hard-
earned money to unfriendly or unreliable countries.
    Thank you.
    [The prepared statement of Ms. Harbert follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Thank you.
    I now recognize Mr. Houston from Nebraska. You are 
recognized for 5 minutes.

                  STATEMENT OF DENNIS HOUSTON

    Mr. Houston. Chairman Terry, Congressman Sarbanes, and 
distinguished members of the House Subcommittee on Commerce, 
Manufacturing, and Trade, my name is Dennis Houston. I am the 
President and CEO of the Norfolk Area Chamber of Commerce in 
Norfolk, Nebraska, the 2013 National Chamber of the Year. The 
Norfolk area in northeast Nebraska is home to the original 
TransCanada Keystone Pipeline route built in 2009. Norfolk is 
also the proud boyhood home of our favorite native son Johnny 
Carson.
    On behalf of the Norfolk Area Chamber of Commerce and its 
more than 675 member firms, the 15,000 area residents our 
members employ, and the 125,000 people in the Norfolk trade 
area, I would like to share our positive experience with 
TransCanada and the Keystone Pipeline in our area of northeast 
Nebraska.
    The original TransCanada Keystone Pipeline has had an 
amazing impact on ``Main Street'' in Norfolk, Nebraska. It 
would be pretentious for us to say what is best for our friends 
west of us in Nebraska, but we are very qualified to share our 
story of what actually happened with the initial Keystone 
Pipeline in northeast Nebraska.
    In June 2009, the Norfolk Area Chamber of Commerce 
established the Pipeline Task Force. We did this with one 
mission in mind: we wanted to proactively recruit TransCanada 
and the Keystone Pipeline to bring their base camp to Norfolk 
and the Madison County area that summer. Our experience with 
their organization and their employees was extremely positive. 
They entered our community as great corporate citizens and 
quickly became tremendous community partners for Norfolk and 
all of the neighboring towns in our area.
    Our Pipeline Task Force established a pipe liner Web site 
to welcome them to Norfolk. We hosted a community-wide family 
welcome BBQ with hundreds of people in attendance. We created a 
Pipe Liner Partner Discount Card to be used at area businesses 
to grow the local economy. Every marquee in our community had 
special messages to welcome our new friends to our community.
    The spouses of the pipe liners, who by their own name 
quickly became known as the ``Pipeline Ladies,'' completed a 
renovation of a crisis center for abused children. This was 
done with a total donation of time, talent, and dollars. After 
a 12-hour day on the job, pipe liners then brought in heavy 
equipment to build and landscape children's playgrounds. They 
also volunteered their personal time at Bright Horizons and the 
Orphan Grain Train, both of which are nonprofits. This intense 
level of community involvement was not simply a goodwill 
gesture for a weekend project but rather a way of life that 
took place over a period of 5 months.
    The positive economic impact of the TransCanada Keystone 
Pipeline in Norfolk, a vibrant rural community of nearly 25,000 
people, was nothing short of amazing. They brought 750 new jobs 
into the area. TransCanada became our third largest employer in 
our area for the 5 months their team was working on the 
project. We believe that our partnership and positive 
experience with TransCanada and the Keystone Pipeline helped us 
to lead northeast Nebraska in economic success over the past 
few years. At the end of the day, we experienced a $10 million 
economic impact in Norfolk and the Madison County area. Please 
keep in mind that this was all happening at a time when most 
areas of the country were experiencing the peak of the 
recession.
    In recent years, CNN and Money Magazine designated Norfolk 
and Madison County as ``The Second-Best Place for Jobs in 
America'' and Norfolk is one of the ``Top 100 Best Places to 
Live in America.'' We are very proud of those accolades, but we 
certainly do not take them lightly. We strive each and every 
day to make them a reality, and more importantly, we will not 
do anything to risk our success, the future of our community, 
or our environment. The positive social and economic 
development impact from projects like the Keystone Pipeline 
helped us achieve these accolades and will help our community 
carry this torch forward for a long time.
    For the citizens of Norfolk and all of Madison County, the 
Keystone Pipeline was not just about bringing 750 workers into 
our community for 5 months. It was about building a rural 
economic development success story in northeast Nebraska. It 
was about new job creation in our part of Nebraska.
    Not only was the TransCanada Keystone pipeline a positive 
experience for the people of Norfolk, Nebraska, during the 
construction phase in 2009, the pipeline continues to 
contribute greatly to our future economic development success 
for years to come. Our community has been developing a new 
industrial highway around a current industrial park as we 
expand the park itself. This new industrial highway will help 
Norfolk create and attract additional new jobs. It was funded 
by Madison County, the City of Norfolk, and Stanton County. One 
million dollars was invested in our economic development 
infrastructure for this project by Stanton County as a direct 
result of real estate tax dollars collected by the county for 
the TransCanada Keystone pumping stations and pipeline just 
down the road.
    Rural Nebraska, like many rural areas in America, is not 
looking for a handout from the Federal Government. We are 
simply asking for the opportunity to take care of ourselves as 
we create new jobs, attract more industry, and bring new people 
to town as a result of projects like this. This would not have 
been possible without the original TransCanada Keystone 
pipeline running through the Norfolk area.
    Thank you.
    [The prepared statement of Mr. Houston follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Thank you.
    Mr. Kaminski, you are now recognized for your 5 minutes.

                   STATEMENT OF RON KAMINSKI

    Mr. Kaminski. Mr. Chairman, on behalf of the 500,000 
members of the Laborers' International Union of North America 
(LIUNA) and the 500 plus members of Local 1140, I would like to 
thank you and acting Member Sarbanes and the members of the 
subcommittee for inviting me to testify today.
    The Laborers strongly support the construction of the 
Keystone XL pipeline, which will move oil from deposits in 
Canada to existing refineries in Texas and Oklahoma. LIUNA has 
been involved with this project for more than 4 years now, 
which, frankly, is entirely too long for what should have been 
a routine pipeline permitting process. This project will create 
millions of work hours for the members of our unions, with good 
wages and benefits. These delays cost construction workers' 
jobs during one of the worst economic periods in our Nation's 
history.
    The construction sector was hit particularly hard by the 
economic recession. The unemployment rate in the construction 
industry reached over 27 percent in 2010, and joblessness in 
construction remains higher than virtually any industry or 
sector, with nearly one million construction workers currently 
unemployed in the United States. Too many hardworking Americans 
are out of work, and the Keystone XL pipeline will change that 
dire situation for thousands of them.
    TransCanada has executed a Project Labor Agreement (PLA) 
with LIUNA, the International Union of Operating Engineers, the 
United Association of Plumbers and Pipefitters, the 
International Brotherhood of Teamsters, and the International 
Brotherhood of Electrical Workers that will cover the 
construction of the Keystone XL pipeline. Other aspects of 
construction, including pump stations, will be performed by 
other unions within the Omaha and Southwest Iowa Building and 
Construction Trades and the Omaha Federation of Labor.
    It is indisputable that jobs will be created and supported 
in the extraction and refining of the oil, as well as in the 
manufacturing and service sectors. It is also clear that the 
construction and maintenance of the Keystone XL will have a 
ripple effect of consumer spending that will have a positive 
impact on the States and communities where the pipeline will be 
located.
    Unfortunately, some of the pipeline's opponents have 
resorted to attacking the nature of work that our members do 
and have chosen as careers. They have imposed a value judgment 
that holds construction jobs to be of a lesser value because, 
eventually, every construction project has a completion date. 
They call these jobs ``temporary'' in an effort to diminish 
their importance to the men and women who have chosen a career 
in the construction sector. The undeniable truth is that, while 
opponents of the pipeline have successfully delayed the 
construction of the Keystone XL, members of my union have lost 
homes, their healthcare and other benefits. Construction 
workers deserve more respect.
    To further attack the project, they have called these jobs 
``dangerous'' and ``dirty.'' The fact of the matter is 
construction is in fact a dangerous occupation and when not 
performed by trained workers can lead to unacceptable 
environmental harm. However, when construction is performed by 
well-trained union workers, these risks can be minimized. I can 
assure you my members, as well as those workers who are part of 
the Project Labor Agreement with TransCanada, are the best 
trained in the world, and will build the safest pipeline in the 
world. And you don't have to take my word for it. We just 
finished building the first Keystone pipeline in 2009 in 
Nebraska and over the Ogallala Aquifer, and it has been 
operating safely since.
    Construction of this pipeline will also help produce needed 
government revenue at the federal, state, and local levels that 
can be used to protect communities from harmful budget cuts 
that have led to layoffs and the elimination of much-needed 
services.
    Many of the pipeline opponents hide behind unfounded and 
unrealistic expectations that if the project is not built, the 
development of oil shale deposits will cease. According to the 
U.S. State Department's very first Environmental Impact 
Statement, ``the proposed Project is not likely to impact the 
amount of crude oil produced from oil sands.'' With or without 
the Keystone XL Pipeline, there will likely be little or no 
effect on the production of oil sands from western Canada.
    To be clear, the refineries in the Gulf Coast will continue 
to seek supplies of heavy crude oil. If they don't get it from 
our friend and ally Canada, they will simply continue to rely 
on oil from foreign regimes where environmental and human 
rights regulations scarcely exist and oil profits are often 
used to oppose the United States' economic and security 
interests.
    The Keystone XL pipeline will be the safest pipeline in the 
world. The 57 special conditions developed by the Pipeline and 
Hazardous Materials Safety Administration and the State 
Department, and voluntarily agreed to by TransCanada, have a 
degree of safety greater than any typically constructed 
domestic oil pipeline system under current regulation.
    Additionally, in order to address environmental concerns 
about the Nebraska Sandhills and the Ogallala Aquifer, 
TransCanada rerouted 195 miles of the pipeline. After a special 
session of our Nebraska legislature unanimously addressed the 
routing issue, including a final resolution that was agreed to 
by environmental groups, and our own Nebraska Department of 
Environmental Quality conducted a rigorous and transparent 
examination of the environmental impact of the project. Our 
Governor, Dave Heineman, once an opponent of the pipeline 
because of environmental concerns, has sent a letter to 
President Obama approving TransCanada's new 195-mile reroute.
    It is also important to note that public opinion surveys in 
Nebraska over the past 2 years have shown overwhelming support 
for the project. The elected representatives ofNebraskans and 
the people of Nebraska have spoken. We want this pipeline--5 
years, over 17,000 pages of environmental studies all 
confirming this project will be safe and is in our national 
interest. It is time to stop moving the goal posts and approve 
this project.
    Opponents are entitled to their own opinions but they are 
not entitled to their own facts. Stopping the Keystone XL 
Pipeline will not stop the development of Canadian oil. Denial 
of a presidential permit only increases the likelihood that 
American markets will miss this opportunity to secure long-term 
commitments for this North American resource.
    If the opponents of American jobs succeed in preventing the 
Keystone XL Pipeline from being built, the socioeconomic 
benefits of this project will not be realized. No local, state, 
and federal revenue will be generated by the construction and 
operation of the pipeline. There will be no additional income 
to property owners and businesses along the pipeline route. And 
critically important to our unions, the jobs that will be 
created by the massive private investment will be lost.
    Thank you for allowing me to testify before you today.
    [The prepared statement of Mr. Kaminski follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Thank you, Mr. Kaminski. I appreciate it.
    Mr. Pugliaresi, you are now recognized.

                 STATEMENT OF LUCIAN PUGLIARESI

    Mr. Pugliaresi. Chairman Terry, Ranking Member Sarbanes, 
thank you so much for this opportunity to talk on this very 
important topic.
    EPRINC has been around a long time, since 1944. We study 
the relationship between petroleum economics and public policy. 
So let's go with the first slide.
    [Slide shown.]
    As you can see by this slide, the vertical axis shows 
production in 1,000 barrels a day. Actually, in the 1980s you 
can see we produced 10 million barrels a day together with 
Canada. Today, we are exceeding that number. It is very 
important. This additional production is extremely important. 
Had we not had this production, there would be no excess 
capacity in the world market today, the price of oil would be 
$20 to $40 higher than it is today, 50 cents to $1 a gallon 
more, and instead of anemic economic growth, we would still be 
in a recession. This is critically important. As a platform, a 
stable new production in North America is a godsend not just 
for North America but for the world oil market.
    And additionally, every time we produce a barrel of oil and 
North America, the real resource cost of that oil is 
substantially less than the claims on our resources from 
imports. So we produce a barrel of oil, a real resource cost 
may be $50. The difference between $50 and $100, that is 
revenue to state, local, federal governments, return on 
capital, profits of course, and also return on labor. So this 
is very important. This is a very cost-effective import 
substitution.
    Next slide.
    [Slide shown.]
    Now, this is our outlook on the future. This is very 
detailed from well-based data. The U.S. and Canada can move up 
to 14 million barrels a day by 2020. This doesn't even include 
natural gas liquids, which would add another 4 million barrels 
a day. This is an enormous engine of economic growth for the 
United States. It makes our manufacturing more competitive and 
requires a very effective network, a very cost-effective 
network to move this production, much of it out of the northern 
tier, through the coast refineries. And I will talk about that 
in a minute.
    Next slide, please.
    [Slide shown.]
    If you look at this slide, the vertical axis shows the 
percentage of U.S. GMP, that is how much our import bill as a 
percentage of our GMP. And if you look at, you can see that out 
to 2019, 2020, the progress looks quite good. Oil imports as a 
percentage of GMP continue to decline. Now, exports/imports are 
not a very cost-effective way to think about energy security, 
but the notion of North America as a platform for stable new 
production is. And you can see here that when we look at it as 
a North American lens, which is really important, the U.S. and 
Canada together take the imports down to less than half-a-
percent of GMP. The North American lens is the right way to 
look at this.
    Once again, as many of the other speakers of pointed out, 
production of Canadian oil and the purchase of it by American 
consumers comes back to the United States in the purchases of 
capital and consumer goods by over 90 percent.
    Next slide.
    [Slide shown.]
    This shows the congestion, what we call sort of the 
congestion of the network. If you think about the United 
States, we produced our oil in the Gulf Coast. We imported our 
oil in our parts in the Gulf Coast, and we moved it up. But all 
of a sudden, we have this surge of production out of the 
northern tier, North Dakota, Montana, Canada. We need to take 
that production now and move it to the coast refineries. And it 
is this congestion here which is causing enormous problems 
throughout the producing regions of the United States. In fact, 
if we could get XL built, we believe that it will probably lift 
well head values throughout North America by $3 a barrel. A lot 
of that money shows up in local, state, and federal revenues.
    Next slide.
    [Slide shown.]
    I think it is very important to understand what is going 
on. The middle of the United States today no longer uses any 
non-US or non-Canadian oil. As you can see by this chart up 
here, imports are in the green, so if you produce more oil in 
Canada or more oil in North Dakota, you have to move that oil 
to a coastal refining center. The midcontinent of the United 
States is now using only U.S. and Canadian crude. And so if we 
don't have an effective transportation system to move this 
crude to the coastal refining centers, we are not going to 
embrace the huge benefits that the North American petroleum 
renaissance is presenting the country. And this actually is a 
serious problem because when we can't pull the trigger on 
something as simple as XL, we are sending a message to OPEC, to 
investors around the world that we are incapable of even 
embracing the simplest measures that will enhance the petroleum 
renaissance, our energy security.
    Finally, the last slide.
    [Slide shown.]
    I think there are a couple of issues on expectations I 
would like to talk about. As we have spoken already, if you 
look from Cushing to the Gulf Coast, that project is almost 
done, so it is the missing piece on XL. But what has happened 
from this decision process in terms of expectations? The first 
thing that has happened is no Canadian company today or U.S. 
company will consider a cross-border pipeline. We know this 
because we have spoken to some and suggested some areas where 
they could do it, and they have said you guys are crazy. We are 
not going to go through the torture chamber of the U.S. 
decision process. It is not good for our company, it is not 
good for the process, and it is too unpredictable.
    The second issue that is really important is that 
TransCanada--and many people may not know this--TransCanada 
purchased $2 billion worth of pipe 2 years ahead of schedule 
under the expectation that President Obama, like every other 
American President, would not deny a cross-border pipeline with 
Canada. That is now sitting in the ground. That loss of 
expectations is a serious problem.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pugliaresi follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Thank you.
    Ms. Kleeb, you are now recognized for your 5 minutes.

                STATEMENT OF JANE FLEMING KLEEB

    Ms. Kleeb. Thank you, Representative Terry and members of 
the committee, and thank you to all the pipeline fighters and 
landowners watching at home. I am Jane Kleeb, the Executive 
Director of Bold Nebraska.
    As a great Republican President once said, ``no man may 
poison the people for his private profit.'' I believe President 
Teddy Roosevelt was absolutely right. And in Nebraska, we are 
fighting to keep the Keystone XL away from the delicate 
Sandhills, which it still crosses, and our precious Ogallala 
Aquifer.
    When Keystone I was built in our State, Nebraskans actually 
didn't know much about oil pipelines. We are an ag State; we 
are not an oil State, and we certainly didn't know anything 
about tar sands. As a State, when that pipeline was built, we 
did not see a huge economic boom, and as a nation, we did not 
see a huge employment boom. The $1.8 billion dollars that 
TransCanada promises our counties must have been paid in 
Monopoly money because in fact when Keystone I was built, the 
counties that that pipeline crossed, their tax revenue went 
down.
    Looking at job records on Keystone I and TransCanada's Gulf 
Coast Segment, you see about 8 to 900 folks that come in from 
out of state that are employed for about 6 months to a year and 
about 100 local folks good jobs for about the same time period. 
While those are good jobs and those are good people, it is 
nowhere near TransCanada's promise of 20, 40, or a million jobs 
that we have sometimes heard on the Hill.
    In April 2010, the Deepwater Horizon platform exploded into 
the Gulf of Mexico claiming 11 lives and releasing over 5 
million gallons of oil. Within 10 days of capping the BP well, 
Enbridge's tar sands pipeline ruptured into the Kalamazoo 
River, and with it lots of cancer-causing chemicals in tar 
sands.
    In 2013, tar sands literally ran down the streets in a town 
in Arkansas. It was then that our State and our nation were now 
focused on not the economic benefits of Keystone XL but the 
economic risk. Our State's economic backbone is based in 
agriculture not oil pipelines. Our farmers' and ranchers' 
livelihoods rely on clean and abundant water from the aquifer. 
We are the number one State in the Nation when it comes to 
irrigated acres, and it is only because we sit on this vast 
resource.
    There has never been a worst-case water risk analysis done 
by the State Department or by the Nebraska DEQ and TransCanada 
admits their pipeline could rupture up to 1.3 million gallons 
of tar sands and benzene into our water supply, and that is 
obviously a very eye-catching number because it is about the 
same amount of tar sands and chemicals that were spilled into 
the Kalamazoo River. Three years later and over $1 billion in 
cleanup, that tar sands is clinging to the edges of that 
riverbank and is on the bottom of the river. The EPA admits we 
simply don't know how to clean it up, and I am sure Chairman 
Upton knows this risk that faces his State and his community.
    We are deeply worried that our rivers--the Platte, the 
Niobrara, and the Ogallala aquifer--will be the next Kalamazoo 
River, will be the next Mayflower, Arkansas, or will be the 
next Gulf Coast of Mexico.
    America's national interest is not served by a project that 
lines the pockets of the few--and I would say foreign--while 
risking the livelihoods and lives of many Americans. Our 
families live in rural America for a reason. We like our way of 
life. We can actually see the stars there. We can drink from 
the water directly from the aquifer. We gather by the river 
every year to see the annual migration of the Sandhills cranes, 
which I proudly wear on my boots. The Department of Interior 
says that all of that is literally at risk with this project.
    When you know this is an export pipeline--every one of you 
knows it; TransCanada knows it, too--and you know it is going 
to get refined by countries that you all say you hate--Saudi 
Arabia and Venezuela--and it is made with foreign steel--
Welspun knows that. This is not made-in-the-USA steel. It is 
rolled and coated in Arkansas. When you know that and you know 
that TransCanada threatens eminent domain from day one when 
talking with landowners, you should be ashamed of yourselves 
for supporting this project.
    TransCanada is asking landowners to take on a lifetime of 
risk, and so we are asking you to intervene. We want you to see 
their massive lobby and P.R. campaign and all of the millions 
of dollars of lobby dollars as it is, and it is simply a Hail 
Mary pass. They are landlocked. They need to get their product 
to the export market, and when it does, it will open the 
floodgates to the tar sands pipelines or, as the person who 
spoke before me, other pipeline companies will then not want to 
cross the border because they know that they will be facing 
Nebraska ranchers and farmers.
    A risk to our agriculture production in Nebraska or other 
Midwestern states that rely on the aquifer can easily turn into 
a catastrophic economic risk. Last weekend, just in a tiny town 
of Benedict, Nebraska, a group of landowners and concerned 
citizens like these two folks right here, we started to build a 
solar-powered barn with wind directly inside the route of the 
Keystone pipeline. With the drills and hammers, with sturdy 
backs and a lot of will, we are building our own clean and 
reliable energy. And the fact of the matter is is that little 
barn, that little clean energy project will put more energy on 
Nebraska's power grid than the TransCanada Keystone pipeline 
ever will.
    And so we ask you to stand with us, farmers and ranchers, 
stand against eminent domain, stand against foreign oil, and 
help us get this pipeline denied.
    Thank you.
    [The prepared statement of Ms. Kleeb follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Terry. Thank you.
    Mr. Swift, you are now recognized for 5 minutes.

                   STATEMENT OF ANTHONY SWIFT

    Mr. Swift. Thank you, Chairman Terry, Ranking Member 
Sarbanes, and members of the subcommittee. Thank you for 
today's opportunity to testify on the economic and 
environmental issues associated with the Keystone XL tar sands 
pipeline. My name is Anthony Swift. I am a policy analyst for 
the Natural Resources Defense Council. NRDC is a national, 
nonprofit organization dedicated to protecting public health 
and the environment.
    When TransCanada first proposed to build Keystone XL, the 
controversial project generated public outcry for good reason. 
The proposed pipeline would have transported 830,000 barrels of 
tar sands crude--the dirtiest, most carbon-intensive crude in 
the world--across America's farms, communities, and through 
some of the Nation's most sensitive water resources. The 
intervening years of public scrutiny and environmental review 
have only bolstered the argument that the Keystone XL tar sands 
pipeline is not in the Nation's interest and should be 
rejected.
    In the period since TransCanada filed its initial 
application, we have learned through tragic experience of the 
dangers of tar sands spills. In spills in Kalamazoo, Michigan, 
and Mayflower, Arkansas, we have seen communities destroyed and 
learned that tar sands is far more difficult to contain and 
clean than conventional crude. We watched as TransCanada put 
two new pipelines, Keystone I and Bison, into service. Both had 
special safety conditions, and yet in its first year, Keystone 
I spilled 14 times and had to be shut down by federal 
regulators while the Bison pipeline exploded.
    We have learned that the Keystone XL's supporters have 
dramatically exaggerated many of the benefits of this project. 
We were told the Keystone XL was critical to U.S. energy 
security. We now know that over half of the tar sands from 
Keystone XL will be exported after it is refined in the Gulf. 
Rather than a pipeline to the United States, Keystone XL is an 
export pipeline through it.
    While supporters of the pipeline continue to pitch the 
project as a national jobs creator, the reality is quite 
different. The State Department's review indicates that the 
construction of Keystone XL has a job creation potential on par 
with building a shopping mall, and it will support far fewer 
jobs after it is built. In fact, it will employ just 50 
permanent workers in both the United States and Canada after 
construction. That is simply not the national jobs plan that 
its boosters claim.
    And we have seen climate change imposing increasing costs 
on the American people. We just finished last year, the hottest 
year on record across the continental United States. We spent 
over $140 billion to cover crop losses. We saw wildfires that 
burned 9.3 million acres of our forests and fields and 
witnessed storms like Hurricane Sandy--which left 130 Americans 
dead--do more than $80 billion of damage. Climate-related 
spending by the government cost the average American taxpayer 
$1,100 last year alone.
    We have long known that tar sands is incredibly carbon-
intensive to produce. Not only are the well-to-tank emissions 
from gasoline produced from tar sands over 80 percent higher 
than that from conventional crude, we now know that a barrel of 
tar sands produces greater quantities of carbon-intensive 
byproducts like petroleum coke. Replacing conventional crude at 
the Gulf with tar sands from Keystone XL would generate annual 
emissions equivalent to those of over 5 million vehicles. To 
put that in perspective, Americans would have to drive 60 
billion fewer miles every year to make up for the increased 
carbon emissions from Keystone XL.
    We also learned that Keystone XL is the linchpin for the 
tar sands industry's expansion plans. Goldman Sachs, Standard & 
Poor's, and other market observers have noted that the current 
pace of tar sands expansion cannot continue if Keystone XL is 
rejected. We have heard confirming evidence of that today. The 
efforts of Keystone XL supporters to secure the approval 
underlying the importance of this pipeline to the tar sands 
industry expansion plan and the carbon emissions associated 
with that plan. Even in the unlikely scenario that every other 
proposed tar sands transportation project moved ahead, the tar 
sands industry would still not have sufficient transport 
capacity to meet its expansion plans without Keystone XL. There 
is simply no credible way to divorce Keystone XL with the tar 
sands expansion and the carbon pollution associated with it.
    There is a better path forward, one which involves 
expanding a clean economy that already puts millions of 
Americans to work today. In recent years, we have watched clean 
energy become one of the fastest-growing sectors in the U.S. 
economy creating hundreds of thousands of jobs in the process. 
In fact, just in the second quarter of this year, 58 new 
projects in clean energy and clean transportation were 
announced, which will create over 38,000 jobs.
    Our choice is clear: Either we will begin on our watch to 
reduce the dangerous carbon pollution that is driving global 
climate change or our children will inherit climate chaos 
tomorrow. Years of public scrutiny have given us a myriad of 
reasons to reject this tar sands project. Keystone XL is not in 
the Nation's interest.
    NRDC thanks you for the opportunity to present its views 
and I would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Swift follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Terry. Thank you, Mr. Swift.
    And that concludes the testimony of our witnesses and now 
begins our question-and-answer period. Each Member has 5 
minutes to ask questions. I am going to start as the chairman.
    So, Mr. Kaminski, an accusation was laid that the jobs have 
been overstated. Your labor hall has a contract, as I 
understand, with TransCanada to supply labor.
    Mr. Kaminski. That is correct. We constructed the first 
Keystone line with TransCanada. TransCanada was a great 
partner. They wanted the best workers building that pipeline. 
That is why we believe they signed the Project Labor Agreement 
to ensure union members were put to work.
    I find it quite amusing that all these studies that have 
so-called taken place about jobs numbers, no one has ever 
contacted me about a survey or a study on how many jobs were 
created on the first Keystone line, nor on the second one. The 
ideas that these are temporary jobs, every job in construction 
is temporary. We construct wind turbines, we construct ethanol 
plants, biodiesel plants, and we build those wind turbines. We 
can build 120 wind turbines in about a quarter of the time that 
we would build this pipeline. So to say that because it is an 
alternative source of energy or a type of energy it is not a 
temporary job is just pretty funny to me.
    Mr. Terry. I appreciate that.
    Mr. Houston, you had testified that there was a positive 
economic impact from the employees and from property taxes 
generated from the pipeline. Was there a decrease in tax 
revenues during the construction of the pipeline?
    Mr. Houston. Just the opposite for us. When I mentioned the 
industrial road around our industrial part, that million 
dollars is coming from those tax dollars that are coming in 
from Stanton County and from the pipeline pumping stations and 
in those areas. It is money that is coming in that is paying 
for those roads. It is allowing us to grow our community.
    Mr. Terry. All right. And so they are paying taxes?
    Mr. Houston. Yes.
    Mr. Terry. And during the time of the construction, was 
there an increase in tax revenues or a decrease?
    Mr. Houston. A dramatic increase. When you look at where 
the national economy was, you know, at the height of the Great 
Recession in the summer of 2009, to have 750 additional workers 
who are away from home that are out there, you know, working 
hard day in and day out on these 12- and 14-hour days building 
the pipeline, they all spend their money in our community and 
all the neighboring communities. It had an economic impact of 
more than $10 million, and that is a very conservative number. 
Even from trying to accommodate that many people in a rural 
community, I mean we had people that did a 2-week time period 
that built additional RV parks working literally 24 hours a day 
around the clock to build RV parks just so people would have a 
place to live during that time period.
    Mr. Terry. OK.
    Mr. Houston. Because in that rural community of 25,000 you 
don't have 750 extra apartments or homes available when people 
move into the area.
    Mr. Terry. Well, I appreciate that.
    Mr. Pugliaresi, as I understand, from the oil sands in 
Alberta there is to the west a pipeline that is under 
construction and been approved for the Kinder Morgan pipeline 
to the west. So let's make an assumption that there is no 
Keystone pipeline and the oil sands are moved to the east and 
west in Canada not through the United States. Is there an 
economic impact to the United States?
    Mr. Pugliaresi. Yes. Once again, it is important to look 
upon this as a network issue. We really want the whole North 
American network to be as efficient as possible to move crude 
to the coastal refining centers that are most adept and who add 
the most value in processing those crudes. So for Canada to 
move it east and west it is a second-best solution. It is a 
solution I believe they will pursue. But the most efficient 
solution is to move the oil sands production to the Gulf of 
Mexico where the existing technology, the cokers, and the 
refineries are there to process it. The light, sweet crude 
should be moving to California and to the PADD 1.
    So when we impose this restriction by prohibiting it from 
moving, all we are doing is imposing an economic cost on both 
countries. That economic cost is going to show up not just in 
lower profits but lower revenues for state, federal, and local 
governments.
    Mr. Terry. All right. Thank you. My time----
    Ms. Kleeb. Mr. Chairman, just the----
    Mr. Terry. No.
    Ms. Kleeb. OK. Well, there is----
    Mr. Terry. My time is up, and by the way, the rules of this 
are that you will be asked questions. You don't get to blurt 
out.
    And now Mr. Sarbanes will help you. You are recognized for 
5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Ms. Kleeb, do you want to finish your thought?
    Ms. Kleeb. Mr. Terry had said that there was an east and 
west pipeline. Neither is under construction, neither has a 
permit, and both are facing fierce opposition both from First 
Nation tribes, as well as farmers and ranchers and other folks 
in Canada who are opposed to tar sands just as much as we are.
    Mr. Sarbanes. Thank you.
    A couple things: first off, I find the testimony about the 
job creation around this project compelling. However, I don't 
accept the notion that there aren't other tremendous 
opportunities to create jobs, construction jobs, through 
infrastructure investment that will be more environmentally 
sound than this one. And I don't want to get trapped into the 
notion that if we don't pursue this particular project we have 
abandoned the imperative of trying to create good, strong jobs 
and do that within the construction industry.
    Now, Mr. Swift, I wanted to talk a little bit about this 
issue of whether the construction of this pipeline is in fact 
critical to the future of the tar sands industry because this 
is an important point. You know, we have looked at the 
environmental issue from these two sides. Some people are 
focusing pretty exclusively on whether it is safe to transport 
it through the pipeline and we have heard testimony about the 
57 points of safety that have been developed. I am not 
convinced that there aren't still significant risks, and when 
tar sands is involved, I think those risks are even greater. 
But most of the people that are focusing on that are not 
talking about the first instance of the environmental impact, 
which is the extraction and reduction of it, which makes it the 
dirtiest source of transportation fuel out there.
    So those of us who are very concerned about that, how it 
contributes to climate change and do kind of focus on that 
piece of it, it would be somewhat dispositive of our view of 
this thing if we were convinced that it is going to happen 
anyway, right, that even if we don't do Keystone, they are 
going to continue to find the opportunity to develop this 
source of energy. And so the climate change impact is going to 
be there anyhow.
    But I think you have a different perspective. I would like 
you to maybe expand on that. I mean the State Department made a 
statement that they thought it was unlikely to impact the rate 
of development in the oil sands, but there are financial and 
industry experts who have a different view, and if you could 
speak to that, again, I think it is really important that we 
try to nail this down as best we can.
    Mr. Swift. Thank you so much. And that is a critical 
question. Wall Street generally believes that Keystone XL is 
critical to enable tar sands expansion, and the reason for 
that, one thing that is important to understand is that new tar 
sands projects have very high breakeven rates. In order to 
simply break even, many of these projects require anywhere from 
$80 to $100 a barrel to be profitable. And because of those 
high costs, many companies are on the fence right now about 
moving forward with tar sands production projects, new ones.
    The difference between moving tar sands by pipeline and by 
rails appears to be fairly substantial. Pipelines offer the 
cheapest transportation option for companies to move tar sands 
from northern Alberta to the Gulf. And it is becoming 
relatively clear that many new projects are at a critical 
juncture as far as their profitability, and without a clear 
indication that numerous new pipelines are going to be moved 
forward with, they are not going to pull the trigger on that 
production. And this is an opinion that is shared by groups 
like Goldman Sachs as well.
    So the folks that are really invested in identifying which 
way production is going to go and what the impact of the 
Keystone XL decision will be on tar sands expansion indicate 
that the decision to permit the pipeline would enable 
significant tar sands expansion.
    Mr. Sarbanes. Well, I appreciate that. I mean those of us 
who are very focused on the climate change impact of a project 
like this need to understand that this if this project doesn't 
go forward, it really could have a significant impact in 
reducing those CO<INF>2</INF> emissions. And we have heard a 
lot of statistics, comparative statistics, about how large that 
impact would be.
    So I appreciate your testimony and I thank the panel.
    Mr. Terry. Thank you, Mr. Sarbanes.
    And now we recognize the vice chairman of the subcommittee. 
Mr. Lance, you are recognized.
    Mr. Lance. Thank you very much, Mr. Chairman, and good 
morning to you all.
    Not to make a decision is in effect making a decision, and 
I have been listening to the testimony and I respect the 
testimony of all of those on the panel. However, it is my 
position that a decision should be rendered by the 
Administration, yea or nay, and then we in Congress can react 
to that once that occurs.
    To each member of the panel, do you believe the 
Administration should render a decision and when do you believe 
the Administration should render a decision?
    Mr. Delie. I believe the decision should have been rendered 
years ago, not today, but, you know, every day we wait it is 
costing us jobs.
    Mr. Lance. You favor a decision today?
    Mr. Delie. Yes. I could give you one quick example. There 
is a 55,000-ton order that TransCanada is going to build in 
Canada needing pipe, and I just came to the understanding that 
that would be 3 months' work for my employees that they are 
going to use pipe from KXL to build that project and not 
produce new pipe for that.
    Mr. Lance. Thank you.
    Ms. Harbert. Yes, it is past due and there is, contrary to 
what Jane said, an existing pipeline that they will be 
reversing on the oil sands to go to the east coast that is 
under consideration right now with the government's full 
backing.
    Mr. Lance. Thank you. Mr. Houston?
    Mr. Houston. My answer, yes, and my time frame would be 
yesterday.
    Mr. Lance. So that means by definition today?
    Mr. Houston. Yes.
    Mr. Kaminski. I believe that in our organization, like I 
said, we care deeply about the environment. I believe that the 
process does have to take time. Do I think 5 years is too long? 
I do. So I think that decision has to be made as soon as 
possible.
    Mr. Lance. Thank you very much.
    Mr. Pugliaresi. Yes, it should be made immediately.
    Mr. Lance. Yes. Ms. Kleeb?
    Ms. Kleeb. I stand with the President. As he said, when all 
the proper studies are done----
    Mr. Lance. Yes.
    Ms. Kleeb [continuing]. Including----
    Mr. Lance. Yes.
    Ms. Kleeb [continuing]. A worst-case scenario spill on our 
water----
    Mr. Lance. Yes. And what would your time frame be?
    Ms. Kleeb. When the proper studies are done.
    Mr. Lance. Well, can you estimate for the panel when your 
time frame would be?
    Ms. Kleeb. If the State Department can do that study in 2 
months, 6 months, it depends on when that study can be done. I 
will also make sure that the panel knows I am not sure if 
Representative Terry told you, but the Nebraska route is 
actually in question. It is in court, has been in court for 
over a year. We have our lawsuit trial on September 27. That 
could throw out the Nebraska route and force TransCanada to go 
through----
    Mr. Lance. So what would your time frame be? Could you 
estimate for us when you think would be an appropriate----
    Ms. Kleeb. We feel confident that the President would deny 
the pipeline today, and so if he makes the decision today, that 
is fine with me. We have been confident from day one.
    Mr. Lance. And do you favor the President making a decision 
today?
    Ms. Kleeb. I favor the President making the decision when 
he thinks that all the studies have been done.
    Mr. Lance. And do you agree that not making a decision is 
in effect making a decision?
    Ms. Kleeb. I think by him waiting until all the studies are 
and has provided the evidence that we need to prove that this 
pipeline is not in our national interest.
    Mr. Lance. And do you believe 5 years is too long?
    Ms. Kleeb. No, because we still don't have a water risk 
analysis.
    Mr. Lance. No. So you do not believe 5 years is too long?
    Ms. Kleeb. No, we still don't have a water risk analysis. 
It was TransCanada's----
    Mr. Lance. Would 6----
    Ms. Kleeb [continuing]. Own fault and arrogance of why we 
are in this position right now. They should have never tried to 
cross the Sandhills or the aquifer to begin with.
    Mr. Lance. Would 6 years be too long?
    Ms. Kleeb. If we still don't have the proper water study, 
then it is not long enough.
    Mr. Lance. Six years is not long enough in your opinion?
    Ms. Kleeb. If we don't have the proper water risk analysis, 
yes.
    Mr. Lance. Thank you. Mr. Swift?
    Mr. Swift. I think a decision should be made. This current 
application is dated from 2012, and I do believe that, given 
the State Department has a million comments to go through, it 
is critical that they get the process right and that they get 
the best information----
    Mr. Lance. And do you believe a decision should be made?
    Mr. Swift. I do believe that a decision----
    Mr. Lance. And perhaps you and I might disagree as to what 
that decision should be; I respect that. And you believe a 
decision should be made now?
    Mr. Swift. I believe that a decision should be made once 
the best information is evaluated based on the best information 
available. We have to remember this pipeline, TransCanada 
intends to use it as a perpetual resource that is rated for----
    Mr. Lance. And what would your time frame be, Mr. Swift?
    Mr. Swift. It is based on content of the information----
    Mr. Lance. Yes, I have 27 seconds.
    Mr. Swift. As soon as possible.
    Mr. Lance. As soon as possible. I agree with that. And I 
think 5 years is too long. And let me repeat I believe not 
making a decision is making a decision. And you and I might 
disagree as to what the decision would be, and I respect your 
position and your organization has done distinguished work in 
the United States, but you and I agree that a decision should 
be made as soon as possible?
    Mr. Swift. No sooner than possible.
    Mr. Lance. Thank you very much, Mr. Chairman.
    Mr. Terry. I recognize the gentleman from Georgia for 5 
minutes.
    Mr. Barrow. Thank you, Mr. Chairman, and thank you for 
holding this hearing on the Keystone XL pipeline.
    I am a supporter of the Keystone XL pipeline. I believe its 
approval is long overdue. It will increase our access to North 
American energy production and that will better protect 
families here at home from the effects of energy market 
uncertainty caused by political and economic troubles in other 
parts of the world. And let's project that construction of the 
pipeline will create at least 13,000 new construction jobs and 
an additional 7,000 manufacturing jobs. These are highly 
skilled jobs that folks all across the country are looking for.
    When the Keystone XL pipeline is complete, it will move an 
estimated 840,000 barrels of oil per day. That amounts to 10 
percent of America's net daily oil imports, enough to displace 
the oil we import every day from Venezuela. When the folks in 
my district in Georgia look at this project, they realize that 
it won't increase our dependence on oil as our primary source 
for transportation energy as we are already totally dependent 
on oil for our transportation energy. But it will make us less 
dependent on hostile rivals and more reliant upon friendly 
allies for our transportation energy.
    I also understand that it will not harm the environment 
because this oil energy is going to be reduced and refined and 
consumed by somebody. The only real question is whether we get 
first dibs on it or whether we have to get to the back of the 
line behind countries like India and China for our own North 
American oil. For all of these reasons, I urge all parties 
involved to work together to make the Keystone XL pipeline a 
reality.
    And with that, I yield back the balance of my time.
    Mr. Terry. Thank you.
    At this time I recognize Mr. Olson from Texas for 5 
minutes.
    Mr. Olson. I thank the chair and I would like to start my 
comments with a quote about the southern leg of the Keystone XL 
pipeline, and here is the quote: ``Moving oil from the Midwest 
to the world-class, state-of-the-art refineries on the Gulf 
Coast will modernize our infrastructure, create jobs, and 
encourage American energy production.'' That quote did not come 
from Chairman Terry. It didn't come from a Texan like me. It 
came from President Obama's head spokesman, James Carney, 
earlier this year. Create jobs, modernize our infrastructure, 
encourage American energy production.
    I would like to follow up on Mr. Kaminski's spot-on 
comments about we all have our own opinions but not our own 
facts. I would like to offer every panelist a little multiple-
choice question about transporting liquids, whether it is milk 
or oil. And so starting at the end there with you, Mr. Delie--
is that pronounced correctly?
    Mr. Delie. Yes, sir.
    Mr. Olson. What is the safest way to transport liquids? Is 
it train, truck, ocean liner, or pipeline?
    Mr. Delie. Pipelines.
    Mr. Olson. Pipeline.
    Ms. Harbert. Domestic pipelines, but we are going to need 
more than just pipelines as well with this abundance.
    Mr. Olson. Yes, ma'am, just the safest one statistically. 
Yes, I agree completely.
    Mr. Houston? Great last name, by the way.
    Mr. Houston. Thank you. Pipeline.
    Mr. Olson. Mr. Kaminski?
    Mr. Kaminski. No question, pipelines.
    Mr. Olson. Mr. Pugliaresi?
    Mr. Pugliaresi. Yes, long-term data show pipelines have the 
lowest risk.
    Mr. Olson. Ms. Kleeb?
    Ms. Kleeb. It actually depends on what stats you are 
looking at, which Mr. Swift, I am sure, can talk about. But as 
President Obama said, we have enough pipelines to wrap around 
the world. We don't need another one, especially a foreign oil 
one.
    Mr. Olson. OK. You dodged the question. And Mr. Swift?
    Mr. Swift. There is some question in this----
    Mr. Olson. Truck, ocean liner, trailer, or pipeline, four 
choices. We are in real world here.
    Mr. Swift. Yes.
    Mr. Olson. Just stay in real world. Those are our four 
choices, liquid, milk.
    Mr. Swift. It is unclear. We found there are some issues 
with both forms actually, all four.
    Mr. Olson. OK. And one final point about the Ogallala 
aquifer, it is not just under Nebraska.
    Ms. Kleeb. Yes.
    Mr. Olson. It is under Wyoming and South Dakota and 
Colorado and Kansas and New Mexico and Oklahoma, in my home 
State of Texas. Right now, there are at least 25,000 miles of 
pipeline over the aquifer in all those States, 2,000 over 
Nebraska. And again start at the end, does that sound right, 
accurate, yes or no? And it is with you, Mr. Delie, 25,000 over 
the aquifer and 2,000 over Nebraska?
    Mr. Delie. That sounds correct.
    Ms. Harbert. We have a tremendous amount of pipeline 
infrastructure and we need a lot more to move these molecules 
around for the benefit of our economy.
    Mr. Olson. Mr. Houston, I love saying that last name, sir.
    Mr. Houston. Keep saying it. I would agree.
    Mr. Olson. Mr. Kaminski?
    Mr. Kaminski. I would agree and I don't think that this 
argument is about the Sandhills or the aquifer. If it was about 
the Sandhills, the environmental groups in Nebraska would not 
agree to the resolution we came up with and that all----
    Ms. Kleeb. Which environmental groups----
    Mr. Kaminski [continuing]. Super majority of the State 
Senators and the Governor approved. I don't think this is about 
the aquifer or the Sandhills. I think that is an excuse.
    Mr. Olson. Right. It is pipelines.
    Mr. Kaminski. Yes.
    Ms. Kleeb. There are not 2,000 miles of tar sand 
pipelines----
    Mr. Olson. Not tar sands, pipeline.
    Ms. Kleeb. Yes, there are----
    Mr. Olson. Pipeline, pipeline, pipeline.
    Ms. Kleeb. There are things like water pipelines, 
fertilizer pipelines----
    Mr. Olson. And also----
    Ms. Kleeb [continuing]. Things that produce the 
agriculture----
    Mr. Olson [continuing]. Still it is also petroleum 
products, not just----
    Ms. Kleeb. So----
    Mr. Olson [continuing]. Keystone is not unique. Yes, ma'am, 
I----
    Ms. Kleeb. The only tar sands pipeline that crosses our 
State right now is Keystone I, and when it went in the ground, 
people have actually thought it was a water or natural gas 
pipeline, so that is only one tar sands pipeline. And I will 
say that this pipeline still crosses the Sandhills. No 
environmental group signed off on a crooked map that 
TransCanada and our government----
    Mr. Olson. I am out of time, ma'am. Mr. Swift----
    Ms. Kleeb [continuing]. Tried to force down our throats.
    Mr. Olson [continuing]. You are up, sir. Does that sound 
about right, sir, 25,000 over the aquifer, 2,000 over Nebraska?
    Mr. Swift. Well, I come from West Texas where most of those 
pipelines are, and I can tell you that most of that pipeline 
mileage is in the West Texas part of the aquifer. Most of the 
aquifer's water is actually in Nebraska, the vast majority of 
it and not the overlying other States.
    Mr. Olson. Yes, sir. I would just like to talk briefly 
about the jobs.
    Mr. Chairman, I ask unanimous consent to submit a letter 
for the record from Hudson Products Operation, a corporation in 
my district. I went down and visited them during the work 
period, drove down U.S. 59, soon to be I-69, and they are a 
small business which makes fans that are being used in the 
pipeline up there in the tar sands in Canada and they will be 
used to export LNG to other countries. So again this is real 
jobs in Beasley, Texas. This pipeline is necessary. It is safe.
    And I yield back the balance of my time.
    It has been 5 years.
    Mr. Terry. Thank you. And without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Terry. Mr. Harper, you are now recognized for 5 
minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thank each of you 
for being here on what is continuing to be a very important 
topic.
    And if I could ask Mr. Pugliaresi some questions here. You 
know, as has been stated, much of the Canadian crude is now 
being transported by truck or rail and barge, so what would you 
say to folks as to why we need the pipeline?
    Mr. Pugliaresi. So once again, we have this problem. We 
produced and shipped our crude oil and products from the south 
up to the northern tier. We have large-scale production now 
coming out of the northern tier. It needs to be moved 
efficiently in order to set a set of expectations that we can 
continue to produce this oil. This oil has huge net value. This 
is something I don't think we really understand. You can say 
you don't want to build Keystone XL, you can say you don't want 
to drill offshore, but you can't say it is free. We are going 
to give up that value. And if we give up that value, at least 
we ought to be honest about what we are losing out on because 
the numbers are very, very big.
    Mr. Harper. You know, we of course on this side of the 
aisle are very supportive of this project moving forward and 
the need to do that. So if you are telling someone and you are 
rating the efficiency and cost of the various methods, where 
does the pipeline stack up with the transportation methods on 
cost and efficiency?
    Mr. Pugliaresi. I would say that when you have a long-lived 
resource like the Canadian oil sands, it is at least three 
times more efficient because you can amortize the cost of the 
pipeline over 20 years and everything can be built out 
efficiently.
    Mr. Harper. As has been stated, we have other pipelines, 
many pipelines crossing our borders. How does the Keystone XL 
compare to these other cross-border pipelines in terms of the 
scope of the review and the timeline for approval, as others 
have seen?
    Mr. Pugliaresi. As I said, there has never been a cross-
border pipeline turned down by an American President. So 
historically, we have treated the North American trade 
relationship with Canada as an open border, highly integrated 
economic conditions, highly integrated ownership patterns and 
this is the first time, and it has become more a symbolic fight 
than an actual fight. If you look at the data, you take it 
through all the way, it is not something that should have 
created all this furor.
    Mr. Harper. And this President has approved a cross-border 
pipeline in the past, has he not?
    Mr. Pugliaresi. Absolutely.
    Mr. Harper. All right. Here is one thing we look at is we 
look around the world in the global economy that we are in and 
we look at the private sector, how would the private sector 
here in the United States and around the world be viewing us as 
we go through this process on Keystone XL?
    Mr. Pugliaresi. Yes, I think the real danger of this is we 
look incompetent. We have this enormous value, this 
transformation of North America that is before us and we can't 
do the simplest thing to embrace it. I really think the fight 
over this is not about whether we build the pipeline or not; it 
is about the fact that the breakthroughs in hydraulic 
fracturing and horizontal drilling, the in situ production in 
Canada suggests that we are no longer living in an era of 
limitations and scarcity. We can restore growth. We can enhance 
our strategic outlook. And this is a kind of ideological fight 
because a lot of people don't--that was not the world they 
wanted to see.
    Mr. Harper. And if I could, Mr. Kaminski, this is obviously 
very important to your members as a project, and again, give 
the numbers that you would say would be employed if this moves 
through?
    Mr. Kaminski. Within our organization locally, we are 
talking hundreds and hundreds of jobs, but we are only one 
piece of unions that are actually going to construct this 
pipeline and the pump stations.
    Mr. Harper. Total among those that you would say were union 
members, how many jobs are we talking about across----
    Mr. Kaminski. I would think with the northern segment 
probably 9,000, 10,000 jobs. And that is trades that I spoke 
about earlier. National AFL-CIO is in support of this, state 
AFL-CIO, Building and Trades, every labor organization that 
deals with construction is in support of this project.
    Mr. Harper. Ms. Kleeb, don't you think those jobs are 
important?
    Ms. Kleeb. I think union jobs are very important.
    Mr. Harper. OK.
    Ms. Kleeb. In fact, I worked with Ron on trying to pass the 
Employee Free Choice Act, and so there is no question----
    Mr. Harper. OK.
    Ms. Kleeb [continuing]. About union support----
    Mr. Harper. OK.
    Ms. Kleeb [continuing]. But those job figures just simply 
don't pan out.
    Mr. Harper. OK. Well, what if it is----
    Ms. Kleeb. When you look at the job records on Keystone I, 
it clearly says that about 8 to 900 workers----
    Mr. Harper. OK.
    Ms. Kleeb [continuing]. For about 6 months to a year----
    Mr. Harper. Fine.
    Ms. Kleeb [continuing]. Worked on that line in that State.
    Mr. Harper. Let's say----
    Ms. Kleeb. And they build man camps for 900, not 9,000.
    Mr. Harper. Let's say it is 8 to 900.
    Ms. Kleeb. Sure.
    Mr. Harper. Are those homes and lives and jobs and 
families, are they not important, too? Those are----
    Ms. Kleeb. They are critically important----
    Mr. Harper [continuing]. Important, are they not?
    Ms. Kleeb [continuing]. So are the families----
    Mr. Harper. Well, then let's get them----
    Ms. Kleeb [continuing]. And generations of farmers and 
ranchers----
    Mr. Harper. Let's get them to work.
    Ms. Kleeb. Nobody is----
    Mr. Harper. This has been dragged on----
    Ms. Kleeb. Yes, let's put them to work.
    Mr. Harper [continuing]. For way too long.
    Ms. Kleeb. You don't have to wait 5 years for this project. 
Put them to work on the backlog----
    Mr. Harper. This----
    Ms. Kleeb [continuing]. Of infrastructure jobs that you 
guys continue to block----
    Mr. Harper. This project----
    Ms. Kleeb [continuing]. Because of the Republican party.
    Mr. Harper. OK. Look, this job is important. It is 
important to America. It is important to our national security 
and energy security and it puts people to work.
    And I yield back.
    Mr. Terry. Thank you.
    Mr. Johnson, you are recognized.
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Kleeb, the CV that you submitted to the committee lists 
some work you did from 2008 to 2010 for the SEIU as Nebraska 
State Director.
    Ms. Kleeb. Yes.
    Mr. Johnson. Your CV goes on to state that you currently 
run a group called Bold Nebraska.
    Ms. Kleeb. That is correct.
    Mr. Johnson. Is the SEIU one of the groups you are working 
with in your role at Bold Nebraska?
    Ms. Kleeb. No, SEIU was just----
    Mr. Johnson. OK. That is all I need.
    Ms. Kleeb. OK.
    Mr. Johnson. So if the SEIU, a group that you claim to have 
worked for at roughly the same time that you started Bold isn't 
funding you, then who is?
    Ms. Kleeb. So we actually have a list of donors. You can 
see if you go on rally.org/build. Thanks for the plug.
    Mr. Johnson. How about you provide them to this committee? 
How about you do that?
    Ms. Kleeb. I would be more than----
    Mr. Johnson. Thank you.
    Ms. Kleeb [continuing]. Happy to----
    Mr. Johnson. Do you have any other jobs besides your 
activities at Bold?
    Ms. Kleeb. Will you ask Ron Kaminski that same question?
    Mr. Johnson. No. No.
    Ms. Kleeb. OK.
    Mr. Johnson. I am asking the questions.
    Ms. Kleeb. He started a front group, so----
    Mr. Johnson. I am asking the questions----
    Ms. Kleeb. OK.
    Mr. Johnson [continuing]. Ms. Kleeb.
    Ms. Kleeb. OK.
    Mr. Johnson. OK? Let me explain how this process works. You 
are testifying before the American people. That means I ask the 
questions and you answer.
    Ms. Kleeb. And I am a citizen----
    Mr. Johnson. OK?
    Ms. Kleeb [continuing]. Paying your salary.
    Mr. Johnson. Hey, that is not what this meeting is about. 
You get to vote back in Nebraska. That is who your elected 
representatives are. I am in power right now to ask questions 
on behalf of the American people, so don't start filibustering 
me.
    Ms. Kleeb. I am in power----
    Mr. Johnson. Do you have any other jobs besides your 
activities at Bold?
    Ms. Kleeb. I work for Bold Nebraska. I am the executive 
director.
    Mr. Johnson. OK. I understand that your husband is the CEO 
of a woman-owned business called Energy Pioneer Solutions, 
which received an $800,000 grant from the Department of Energy 
in late 2010.
    Ms. Kleeb. That is correct.
    Mr. Johnson. Are you the woman referred to in the grant 
application?
    Ms. Kleeb. No, I am not.
    Mr. Johnson. OK, good.
    Ms. Kleeb. That is hilarious, though.
    Mr. Johnson. Do you have a financial stake in this company?
    Ms. Kleeb. No. Because my husband----
    Mr. Johnson. Let me remind the committee that the jobs, 
development, economic stimulus, and the tax revenue that will 
come if we build Keystone at no cost to the taxpayers. 
Meanwhile, we have activists that are trying to game the system 
to benefit their own financial interests and then turn around 
and take taxpayer dollars to boot.
    Ms. Kleeb. That is completely inappropriate.
    Mr. Johnson. Ms. Kleeb, you have made a number of extreme 
statements about Keystone and climate change over the years. 
Upon review, I have some of those quotes from prominent 
scientists----
    Ms. Schakowsky. Mr. Chairman----
    Mr. Johnson [continuing]. Experts who have engaged in this 
debate.
    Ms. Kleeb. Yes.
    Mr. Johnson. David Keith, a Canadian climate scientist with 
a Ph.D. from MIT, currently serving professor of applied 
physics at Harvard. He says, ``the extreme statements that this 
is game over for the planet are clearly not intellectually 
true.'' Do you agree with Mr. Keith, yes or no?
    Ms. Kleeb. When----
    Mr. Johnson. Yes or no?
    Ms. Kleeb. No, I don't because----
    Mr. Johnson. OK, good.
    Ms. Kleeb [continuing]. When that statement----
    Mr. Johnson. Ken Caldeira----
    Ms. Kleeb. Are you going to let me answer or are you just 
going to continue to yell at me?
    Mr. Johnson. Ken Caldeira, a climate researcher at the 
Carnegie Institution for Science and a professor in Stanford's 
Environmental Earth Systems Sciences Department with a master's 
degree and a Ph.D. from NYU says, ``I don't believe that 
whether the pipeline is built or not will have any detectable 
climate affect.'' Do you agree with Mr. Caldeira's----
    Ms. Kleeb. Clearly, I don't----
    Mr. Johnson [continuing]. Yes or no?
    Ms. Kleeb [continuing]. Or I wouldn't have dedicated the 
last 4 years----
    Mr. Johnson. OK. No. Michael Levi----
    Ms. Kleeb [continuing]. Of my life to try to beat this 
pipeline----
    Mr. Johnson [continuing]. Senior fellow for Energy and 
Environment at the Council on Foreign Relations who has also 
served as director of the Federation of American Scientists 
Strategic Security Project and holds an M.A. in physics from 
Princeton and a Ph.D. from the University of London. He says 
this: ``And despite fears by climate change activists that 
increased oil sands production has profoundly negative 
consequences to global warming, Alberta's massive reserve base 
contributes relatively little to the problem at a global 
scale.'' Do you agree with Mr. Levi, yes or no?
    Ms. Kleeb. I agree----
    Mr. Johnson. Do you agree with Mr. Levi?
    Ms. Kleeb [continuing]. Providing----
    Mr. Johnson. I am not interested in the picture----
    Ms. Kleeb. I think----
    Mr. Johnson [continuing]. That you have got there.
    Ms. Kleeb. Well----
    Mr. Johnson. I am interested in your answering my 
questions.
    Ms. Kleeb. These are the generations that we are fighting 
for and you are continuing----
    Mr. Johnson. Mr. Chairman, would you instruct her to answer 
the questions?
    Mr. Terry. I will instruct both. Give her a little bit of 
time----
    Ms. Kleeb. No, I don't agree with any of your questions----
    Mr. Terry. Ms. Jane Kleeb, I am--all right. Continue with 
your questions.
    Mr. Johnson. Now, I will quote from President Obama's own 
State Department from its draft 2013 assessment which found 
that ``Canada will develop its oil sands with or without the 
project. Approval or denial of the proposed project is unlikely 
to have a substantial impact on the rate of development in the 
oil sands or on the amount of heavy crude oil refined in the 
Gulf Coast area.'' Do you agree with the President's 
Administration, specifically the Department of State, yes or 
no?
    Ms. Kleeb. Representative Johnson, I do not agree with the 
State Department's analysis, which is widely known because it 
was written by----
    Mr. Johnson. Good.
    Ms. Kleeb [continuing]. A TransCanada----
    Mr. Johnson. We have got three experts with numerous 
advanced degrees from the world's most prestigious universities 
and the President's own Department of State saying that the 
environmental impact of the Keystone pipeline would be 
nonexistent. What qualifies you other than your activist title 
to dispute the assertions made by so many aforementioned 
experts?
    Ms. Kleeb. Because the----
    Mr. Johnson. Do you hold a graduate-level degree in any 
relevant field?
    Ms. Kleeb. Because I----
    Mr. Johnson. Do you hold a graduate degree in any relevant 
field?
    Ms. Kleeb. I have a----
    Mr. Terry. Let her answer the question.
    Ms. Kleeb [continuing]. Graduate degree in international 
training and education.
    Mr. Johnson. Did you ever take a chemistry course?
    Ms. Kleeb. No, sir, I did not.
    Mr. Johnson. Did you ever take a physics course?
    Ms. Kleeb. Have you ever worked on a farm or ranch?
    Mr. Johnson. Oh, absolutely. I am a two-wheel, wagon-
rutting mule farmer.
    Mr. Terry. All right.
    Mr. Johnson. Do you want to hear my mule stories?
    Mr. Terry. Your time is expired for both.
    And now we have the ranking member, Ms. Schakowsky, who has 
5 minutes.
    Ms. Schakowsky. Mr. Chairman, when I attempted to intervene 
at what I believe was an inappropriate harangue, which included 
suggesting that people including, I guess, Ms. Kleeb--he is 
gone now--that somehow she brought it on herself, I would like 
to say that in this committee I would hope that we treat 
witnesses who have come here a bit better than that, and nobody 
deserves to be harangued in the manner that she was. And I take 
great exception. And what I would like to do right now is give 
Ms. Kleeb an opportunity to respond in any way you would like 
to the questions to which you were not given appropriate time 
to answer.
    Ms. Kleeb. Thank you, Representative.
    I mean I am quite certain that even Representative Terry 
would know that I am in this fight for very clear reasons. My 
husband's family homesteaded in the Sandhills. We have a long 
line of ranchers and farmers in our family. There is one reason 
why we are fighting this pipeline and it is because we don't 
believe that American farmers and ranchers should have to take 
on the risks of a foreign tar sands export pipeline. It is 
pretty simple. And people can kind of lob and he is not even 
here to look at me in the eye to continue. I guess he didn't 
have the courage to stand here and wouldn't allow me to fully 
answer. So I am willing to debate anyone, anytime on this 
pipeline. I don't have to have a chemistry degree to know that 
this pipeline is all risk and no reward. It is simply that 
easy.
    Ms. Schakowsky. And let me just say, too, the pipeline 
itself we can argue about jobs or whatever, but the issue of 
unleashing the dirtiest source of energy, the tar sands in 
Canada, is a dangerous and unnecessary way in my view to 
proceed right now. I don't think that this is--and I have 
talked to my friends in labor who made it very clear there are 
a lot of jobs fixing pipes right now that need to be done. We 
see one after another of leaks that are erupting. I support 
that. We need to do infrastructure. Those are real jobs. Those 
are real jobs.
    And, you know, I am not saying these pipeline jobs aren't 
but to do something that I think not even in the long run but 
in the short run exacerbates what many of my colleagues on the 
other side of the aisle want to simply deny that climate change 
is real and detrimental and that we are contributing to it.
    I wondered, Mr. Swift, as one of our other witnesses, I 
wondered if you wanted to contribute to this?
    Mr. Swift. Well, I would just add with regard to the 
importance of tar sands is an emitter of carbon, increasing 
emissions from tar sands are why Canada is on track to miss its 
climate obligations, its 2020 climate obligations.
    Ms. Schakowsky. Well, and it also withdrew from the Kyoto 
Treaty, right?
    Mr. Swift. That is exactly right. They withdrew in 2011 
from Kyoto. They committed to reduce their carbon emissions by 
17 percent in 2020 and almost entirely because of increasing 
tar sands emissions, they are going to miss that goal by quite 
a bit.
    And beyond 2020, the plans to triple tar sands production 
from, you know, 2010 to 2030 would have a very large impact on 
carbon.
    Ms. Schakowsky. Well, could you comment on whether or not 
this is going to happen anyway? My understanding if the United 
States does not agree to this, that this is not necessarily 
going to happen anyway.
    Mr. Swift. That is exactly right, and that is why the tar 
sands industry is so committed to try to get this pipeline 
through because it is a lifeline to their expansion plans. Even 
if every other transportation project went through that they 
proposed, they wouldn't have enough transport potential to 
supply their expansion plans, and most of those other projects 
have serious issues. Most of them are not going to go through. 
Keystone XL is one of the largest and the most immediate 
projects available to them. A rejection of Keystone XL would 
send a significant signal to the investment community that tar 
sands are simply too carbon-intensive. There is no social 
license for developing them. They are too high-cost to put 
money into.
    Ms. Schakowsky. Well, I want to thank you for that. You 
know, rather than spending its time trying to defund and stop 
any kind of clean energy project whatsoever in this country, 
which is a fact time after time after time on the other side of 
the aisle, I have suggested and will suggest again that my 
friends on the Republican side of the aisle ought to get their 
heads out of the tar sands. Thank you.
    Mr. Terry. I now recognize the gentleman from Missouri, Mr. 
Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. I appreciate the 
introduction.
    I want to thank you all for being here today, number one, 
and, Ms. Kleeb, you have had a lot of questions asked of you 
today and you would be what I call fairly combative and I will 
give you a little tip on dealing with me. If you don't answer 
my questions, just get really, really loud and really, really 
animated, because the louder you get, the more I am going to 
lower my voice, and pretty soon, I won't be talking at all. 
So--OK.
    Do you know the average age, Ms. Kleeb, of those pipelines 
that we have enough of to wrap around the world that President 
Obama referred to?
    Ms. Kleeb. Yes, and my mom would call it assertive or 
independent.
    But we have an aging pipeline infrastructure. PHMSA has 
talked about this actually more recently. They talked about how 
they actually don't have enough staff to really be monitoring 
the pipelines in a safe manner and that they wish that more 
States like Nebraska would actually take on a state review 
process.
    Mr. Long. You are going into a lot of detail. I have only 
got 5 minutes. I am just asking about do you know the average 
age of them?
    Ms. Kleeb. I think it is somewhere between 40 and 50 if I 
am correct.
    Mr. Long. OK. Common sense would dictate to me--because 
that is kind of what I have been saying out there when I am 
talking about Keystone XL--but common sense would dictate to me 
that pipelines that are 40, 50, 60, some 70 years old and 
better would probably not be nearly as safe as a new state-of-
the-art pipeline that we could build today.
    You have, Ms. Kleeb, what did you say your mom said? It is 
assertive?
    Ms. Kleeb. Yes, independent, assertive----
    Mr. Long. All right.
    Ms. Kleeb [continuing]. Yes.
    Mr. Long. I was going to say that you have attacked people, 
but I am going to change that. I am going to say that you have 
been assertive with people, as your mother would say, who 
support Keystone XL as extreme, reckless, desperate--those 
three things come to mind. And I am not here to judge your 
opinion, but given those remarks which are out there in the 
public domain, I want to put them in a little bit of context.
    So let's look at a record of the Democratic-controlled 
United States Senate. We have people such as--this is the one 
time that Keystone XL was voted on--was allowed a vote. It 
passed 62 to 37; 17 Democrats voted in favor. One, which I am 
assuming either Senator Chris Coons was extreme, reckless, or 
desperate, and I will let you pick which one of those he was, 
but he is a Democrat from Delaware and someone with a lifetime 
voting record of 96 percent with the League of Conservation 
Voters, which I am sure you are well aware of is a pretty 
liberal environmental group. He voted for it.
    Senator Carper, Democrat from Delaware, with a lifetime 
League of Conservation Voters rating of 80 percent, voted for 
Keystone XL. Senator Michael Bennet, Democrat from Colorado, 
with a League of Conservation Voters lifetime rating of 90 
percent, voted for Keystone XL. Senator Bob Casey, a Democrat 
from Pennsylvania, with a lifetime League of Conservation 
Voters record of 93 percent, voted for Keystone XL. Senator Kay 
Hagan, lifetime League of Conservation Voters, 84 percent, 
voted yes; and Senator Jon Tester, Democrat from Montana, with 
an 84 percent record with the League of Conservation Voters.
    So, again, being one of the most liberal environmental 
groups, if they think the Senators are just great most of the 
time on most issues, are you really calling them reckless, 
extreme, and desperate?
    Ms. Kleeb. I think that the vote was wrong, and honestly, 
the only folks that I care about and take direction from are 
the farmers and ranchers in our State on this particular 
project and----
    Mr. Long. So I will take that as a yes, you are calling 
those Democrat Senators----
    Ms. Kleeb. Well, I never said that, Mr. Long, but if you 
want to put words in my mouth, feel free.
    Mr. Long. I am not trying to put words in your mouth. I am 
just saying that----
    Ms. Kleeb. I said their vote was wrong. And I am sure I 
have written many letters to their offices saying as much and 
so have farmers and ranchers and other citizens have.
    Mr. Long. And when you are confrontational with people that 
support Keystone XL as extreme, reckless, and desperate, I just 
want to put it in some context.
    It was brought up and you laughed it off, but just for the 
record, in your husband's woman-owned business, who is that 
woman?
    Ms. Kleeb. He has many female investors, and so if you want 
to ask my husband about his business, which I am not sure that 
you asked any other panelist about their spouses' business----
    Mr. Long. Well, you can be sure of that----
    Ms. Kleeb [continuing]. Which I find completely sexist----
    Mr. Long [continuing]. Because I haven't asked any other--
--
    Ms. Kleeb [continuing]. Mr. Long.
    Mr. Long [continuing]. Panelists anything.
    Ms. Kleeb. So if you would like to bring my husband in to 
talk about his business, which is very successful, which 
employs more individuals than----
    Mr. Long. Can you provide us----
    Ms. Kleeb [continuing]. TransCanada's Keystone XL 
pipeline----
    Mr. Long [continuing]. With a name of the----
    Ms. Kleeb. No, Mr. Long. I won't----
    Mr. Long. You can't provide the committee with that name?
    Ms. Kleeb. No, I won't do that, but if you want to ask my 
husband to come and visit about his business, I am sure he 
would be happy to.
    Mr. Long. I will leave that up to the chairman. That is not 
at my discretion.
    Ms. Kleeb. OK.
    Mr. Long. But I would think that you would know who owned 
your husband's business so----
    Ms. Kleeb. I do. I never said----
    Mr. Long. With that, I yield back.
    Ms. Kleeb [continuing]. That I didn't.
    Mr. Terry. All right. The gentleman yields back.
    And having no further Members to ask questions, that 
concludes our hearing.
    To the panelists that are here, thank you for being here. 
We appreciate your testimony. The Members have the right to 
send it written questions within 10 days to you. If you receive 
written questions, we would appreciate a prompt reply. Prompt 
would be a couple weeks, just not several months.
    So with that, we stand adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
